<html>
<title> - S. 744 AND THE IMMIGRATION REFORM AND CONTROL ACT OF 1986: LESSONS LEARNED OR MISTAKES REPEATED?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
  S. 744 AND THE IMMIGRATION REFORM AND CONTROL ACT OF 1986: LESSONS 
                     LEARNED OR MISTAKES REPEATED?

=======================================================================




                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                 S. 744

                               __________

                              MAY 22, 2013

                               __________

                           Serial No. 113-30

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
81-174                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
SPENCER BACHUS, Alabama              ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     JUDY CHU, California
TED POE, Texas                       TED DEUTCH, Florida
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TOM MARINO, Pennsylvania             KAREN BASS, California
TREY GOWDY, South Carolina           CEDRIC RICHMOND, Louisiana
MARK AMODEI, Nevada                  SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
[Vacant]

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel



                            C O N T E N T S

                              ----------                              

                              MAY 22, 2013

                                                                   Page

                           OPENING STATEMENTS

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     3

                               WITNESSES

Julie Myers Wood, President, Compliance, Federal Practice and 
  Software Solutions, Guidepost Solutions
  Oral Testimony.................................................     6
  Prepared Statement.............................................     8
Chris Crane, President, National Immigration and Customs 
  Enforcement Council 118, American Federation of Government 
  Employees
  Oral Testimony.................................................    26
  Prepared Statement.............................................    28
David V. Aguilar, Partner, Global Security and Intelligence 
  Strategies (GSIS)
  Oral Testimony.................................................    40
  Prepared Statement.............................................    42

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable George Holding, a 
  Representative in Congress from the State of North Carolina, 
  and Member, Committee on the Judiciary.........................     4
Material submitted by the Honorable Bob Goodlatte, a 
  Representative in Congress from the State of Virginia, and 
  Chairman, Committee on the Judiciary...........................    53
Material submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................    91
Material submitted by the Honorable Pedro R. Pierluisi, a 
  Representative in Congress from Puerto Rico, and Member, 
  Committee on the Judiciary.....................................    97
Material submitted by the Honorable Suzan DelBene, a 
  Representative in Congress from the State of Washington, and 
  Member, Committee on the Judiciary.............................   116
Material submitted by the Honorable Hakeem Jeffries, a 
  Representative in Congress from the State of New York, and 
  Member, Committee on the Judiciary.......................127<greek-l>
                       deg.OFFICIAL HEARING RECORD
      Material Submitted for the Hearing Record but not Reprinted

S. 744, the ``Border Security, Economic Opportunity, and Immigration 
    Modernization Act'' is not reprinted in this hearing record but is 
    on file with the Committee and can be accessed at:

    http://www.gpo.gov/fdsys/pkg/BILLS-113s744is/pdf/BILLS-
113s744is.pdf


  S. 744 AND THE IMMIGRATION REFORM AND CONTROL ACT OF 1986: LESSONS 
                     LEARNED OR MISTAKES REPEATED?

                              ----------                              


                        WEDNESDAY, MAY 22, 2013

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The Committee met, pursuant to call, at 2:26 p.m., in room 
2141, Rayburn House Office Building, the Honorable Bob 
Goodlatte (Chairman of the Committee) presiding.
    Present: Representatives Goodlatte, Sensenbrenner, Smith, 
Chabot, Bachus, King, Franks, Gohmert, Jordan, Poe, Chaffetz, 
Marino, Gowdy, Amodei, Labrador, Farenthold, Holding, Collins, 
DeSantis, Conyers, Nadler, Scott, Watt, Lofgren, Jackson Lee, 
Johnson, Pierluisi, Chu, Deutch, Gutierrez, DelBene, Garcia, 
and Jeffries.
    Staff Present: (Majority) Shelley Husband, Chief of Staff & 
General Counsel; Branden Ritchie, Deputy Chief of Staff & Chief 
Counsel; Allison Halataei, Parliamentarian & General Counsel; 
Andrea Loving, Counsel; Dimple Shah, Counsel; Kelsey Deterding, 
Clerk; (Minority) Perry Apelbaum, Staff Director & Chief 
Counsel; Danielle Brown, Parliamentarian; and Tom Jawetz, 
Counsel.
    Mr. Goodlatte. Good afternoon. The House Committee on the 
Judiciary will come to order. Without objection, the Chair is 
authorized to declare recesses of the Committee at any time. We 
welcome everyone to this afternoon's hearing on ``S. 744 and 
the Immigration Reform and Control Act of 1986: Lessons Learned 
or Mistakes Repeated?''
    I'd like to start off by commending all of my colleagues in 
both the House and Senate who have worked together in a 
bipartisan manner to address the difficult but crucial issue of 
immigration reform. As I expect that immigration reform 
legislation will follow regular order, it is important that 
this Committee carefully examine the proposals that have been 
offered. Thus we will today turn to S. 744,* the omnibus 
immigration reform being considered by the Senate.
---------------------------------------------------------------------------
    *S. 744, the ``Border Security, Economic Opportunity, and 
Immigration Modernization Act.''

      http://www.gpo.gov/fdsys/pkg/BILLS-113s744is/pdf/BILLS-
      113s744is.pdf
    The drafters of S. 744 promise to ensure that this is a 
successful permanent reform to our immigration system that will 
not need to be revisited. The drafters seek an end to the 
problem of illegal immigration for once and for all. While this 
is a laudable and necessary goal, their bill falls far short of 
achieving it. In order to effectively deal with the problem of 
illegal immigration and ensure that future generations do not 
have to deal with legalizing millions more people, we need to 
take a look at our past mistakes. We need to ensure that we do 
not repeat them.
    President Reagan signed the Immigration Reform and Control 
Act, or IRCA, into law on November 6, 1986. The bill provided 
for three main reforms: legalizing the millions of immigrants 
already in the country, increasing border enforcement, and 
instituting penalties for employers who hired unauthorized 
workers, in order to stop the flow of new unlawful immigrants. 
These reforms were based on the realization that if Congress 
simply passed a legalization program we would simply be 
encouraging future illegal immigration. The Select Commission 
on Immigration had warned just a few years earlier that without 
more effective enforcement, legalization could serve as a 
stimulus to further illegal entry.
    Unfortunately, IRCA's enforcement measures never 
materialized, and the Commission's fears were realized. Border 
security barely improved. Employer penalties were not enforced. 
Now, 26 years later, all of us who want to fix our broken 
immigration system are haunted by the legacy of IRCA's failure, 
and we have serious concerns that S. 744 repeats some of IRCA's 
mistakes.
    Many advocacy groups who are ardent supporters of S. 744 
are on record stating that they do not want legalization to be 
dependent on border security and enforcement triggers. Indeed, 
whether or not it contains triggers, the Senate bill is 
unlikely to secure the border. It requires DHS to simply submit 
a border security plan to initiate the legalization of 11 
million unlawful immigrants. Without securing the border, and 
with a simple submission of a plan, unlawful immigrants become 
eligible for registered provisional immigrant status.
    The legalization of unlawful immigrants continues to 
advance with just a certification that the border security 
strategy is substantially deployed and substantially 
operational in the sole discretion of the Secretary. Note that 
the strategy does not have to be complete or be even more than 
a fantasy.
    In addition, S. 744 ostensibly mandates employer use of E-
Verify. Now, this is a necessary element of any real 
immigration reform if we want to end the jobs magnet for future 
illegal immigration. However, S. 744 doesn't fully implement E-
Verify for up to 7 years. In addition, it actually forces 
employers to employ, pay, and train unlawful immigrants for 
years should they pursue never-ending baseless appeals of their 
E-Verify nonverifications.
    Further, whatever enforcement provisions are in S. 744 are 
subject to implementation by the current Administration, which 
fails to enforce the laws already on the books. The Department 
of Homeland Security is releasing thousands of illegal and 
criminal immigrant detainees while providing ever-changing 
numbers to Congress regarding the same. The Department of 
Homeland Security is forbidding ICE officers from enforcing the 
laws they are bound to uphold. A Federal judge has already 
ruled DHS' actions likely in violation of Federal law. DHS is 
placing whole classes of unlawful immigrants in enforcement-
free zones. DHS claims to be removing more aliens than any 
other Administration, but has to generate bogus numbers in 
order to do so.
    Ultimately, the American people have little trust, where 
the Administration has not enforced the law in the past, it 
will do so in the future. That is why real immigration reform 
needs to have mechanisms to ensure that the president cannot 
simply turn off the switch, any president turn off the switch 
on immigration enforcement. And let me add that I do not single 
out the current Administration because previous Administrations 
of both parties have had similar failings. The Senate bill 
contains no such mechanisms.
    The last time Congress passed a major immigration reform 
bill, its goal was to start with a clean slate and then stop 
the flow of illegal migrants across the border. But in the 
years after the bill passed illegal immigration surged. So the 
question remains: Are we learning lessons from the past or 
repeating the same mistakes?
    While I commend the Senate for their continuing efforts to 
tackle the extremely difficult task of reforming our broken 
system, I must observe that S. 744 repeats many of the mistakes 
of the past.
    I look forward to continuing to work in the House to find 
solutions to reform our broken immigration system, including 
establishing effective mechanisms to make certain that our laws 
are indeed enforced going forward. And I again applaud those 
Members of the House, including several Members of this 
Committee, on both sides of the aisle, who are working in a 
constructive way to try to address this very important issue.
    And at this time it is my pleasure to recognize the Ranking 
Member of the Committee, the gentleman from Michigan, Mr. 
Conyers, for his opening statement.
    Mr. Conyers. Thank you, Chairman Goodlatte.
    I appreciate the fact that the ball is now in our court 
here in the House. And we want to look carefully at the 1986 
law and its legalization provision. Some say the bill granted 
undocumented immigrants amnesty in the law signed by President 
Reagan.
    Most undocumented immigrants who qualified for legalization 
received temporary status. Those temporary residents were 
allowed to apply for a green card after just 1 year, and 
agricultural workers were allowed to apply for a green card 
immediately, without any period of temporary status. And so the 
law in 1986 imposed neither a penalty nor a fine. And so I 
think an overly critical examination of the 1986 law would be 
hard pressed to say that the Senate bill provides amnesty. It 
doesn't. And that's the difference. That's one huge difference.
    Under the Senate bill, undocumented immigrants who register 
must pay a $1,000 fine and are placed into a provisional status 
for a full 10 years. Throughout that period, they of course 
must remain employed, satisfy the requirements of good 
citizenship, make sure they have no tax liabilities to remain 
eligible for provisional status. But the one thing it does is 
it takes them out of the shadows and gives them an opportunity 
to earn permanent status.
    Remember, too, that in 1986 they were protecting the 
borders with flashlights and outdated equipment. We now have a 
much more effective system. And we ought to, we're spending 
about $18 billion a year on it. And we've talked to ICE and 
Immigration people repeatedly about whether we're getting our 
money's worth in that circumstance.
    Another criticism of the 1986 law is that while the 
legalization program went forward, the promised enforcement 
never followed. There may be truth to this, and I am not sure. 
But even if enforcement didn't increase much in the years 
immediately following, it's certainly picked up now. And this 
Committee I think has done a good job in trying to make sure 
that it's doing a much better point in making certain that we 
get enforcement.
    Now, according to the analysis of the Immigration Policy 
Center, the Federal Government has spent a total of $186.6 
dollars on immigration enforcement. Each year, we detain and 
remove record numbers of people, spend more money on 
immigration than on all other Federal law enforcement efforts 
combined.
    And still the Senate responds to some of that criticism by 
preventing undocumented immigrants from registering for 
provisional status until the Department of Homeland Security 
has begun to implement two new strategies: the strategy to gain 
effective control of the southwest border and a southwest 
border fencing strategy. And provisional immigrants cannot get 
a green card unless and until the border strategies are 
substantially operational or completed, and that the E-Verify, 
a new technique that we think is going to be pretty effective, 
is mandatory for all employers, and that the Department of 
Homeland Security has an electronic exit system at air and sea 
ports to identify visa overstays.
    And maybe the most important way that the Senate bill 
differs from the 1986 law is that it sets out to actually fix 
our broken immigration system. The bill aims to prevent future 
illegal immigration by facilitating legal immigration. And in 
many ways the biggest failure of the 1986 legislation was that 
it didn't leave us with an immigration system capable of 
meeting the future immigration needs of the country, no way to 
satisfy our agricultural needs and our non-agricultural needs 
as well. And so as a result, we need to make sure that we fix 
the system, and this discussion with our distinguished 
witnesses is one way to move this forward.
    I think that we can do it. I think we've got something to 
build on. I applaud the other body for reporting this work 
finally at last. But nothing is perfect, and perhaps we may be 
the ones that help improve it. Thank you very, very much, Mr. 
Chairman.
    Mr. Goodlatte. I thank the gentleman for a fine opening 
statement.
    And without objection all other Members' opening statements 
will be made a part of the record.
    [The prepared statement of Mr. Holding follows:]
Prepared Statement of the Honorable George Holding, a Representative in 
Congress from the State of North Carolina, and Member, Committee on the 
                               Judiciary
    Thank you, Mr. Chairman.
    Our immigration system is certainly broken and in desperate need of 
repair. I applaud the Senate's efforts to create a bipartisan 
immigration bill. I appreciate the amount of time, energy, and 
cooperation that went into forming this bill.
    However, I have some concerns about the Senate's proposal. In 1986, 
the nation was facing an immigration problem similar to what we are 
dealing with today. There were millions of undocumented aliens living 
in America, and the situation was made worse by the fact that many 
employers were hiring these illegal workers off the books and paying 
them less than U.S. workers. As a result, Congress passed the 
Immigration Reform and Control Act (IRCA). This legalized millions of 
immigrants and established laws restricting the employment of 
undocumented persons.
    However, due to lax enforcement and insufficient internal controls, 
IRCA has not been effective in regulating illegal immigration, and now 
we are back in the same situation we were in nearly thirty years ago. 
Problematically, the current Senate bill does adequately address the 
enforcement failures of these immigration laws. In fact, it goes so far 
as to weaken some of the enforcement laws already in existence.
    For example, since 1996, the Department of Homeland Security has 
operated a biometric entry-and-exit system at land, air, and sea ports 
to authenticate visas of people going in and out of the U.S. The Senate 
bill rolls back this requirement to require an ``electronic'' exit 
system at air and sea ports only. A biometric system will only be 
required at ten U.S. airports. This increases the possibility that 
illegal immigration will go unnoticed or that temporary visitors will 
overstay their visas.
    The enforcement of existing immigration laws is one of the most 
important aspects of any forthcoming immigration legislation this 
Congress. If the Senate bill proceeds as currently drafted, we will be 
taking a big step backward instead of moving forward. I believe we need 
to take a second look at these provisions and make sure we do 
immigration reform right this time.
                               __________

    Mr. Goodlatte. We welcome our distinguished panel today. 
And if you would all rise, we'll begin by swearing you in.
    [Witnesses sworn.]
    Mr. Goodlatte. Thank you. And let the record reflect that 
all the witnesses responded in the affirmative.
    We have a very distinguished panel of witnesses joining us 
today, and I'll begin by introducing all of them. Our first 
witness is Julie Myers Wood, the president of Compliance, 
Federal Practice and Software Solutions at Guidepost Solutions 
LLC, an immigration investigation and compliance firm. Ms. Wood 
served as the Assistant Secretary of DHS at Immigration and 
Customs Enforcement, or ICE, for nearly 3 years. Under her 
leadership, the agency set new enforcement records with respect 
to immigration enforcement, export enforcement, and 
intellectual property rights. Ms. Wood earned a bachelor's 
degree at Baylor University and graduated cum laude from 
Cornell Law School.
    Our second witness today is Mr. Chris Crane, who currently 
serves as the president of the National Immigration and Customs 
Enforcement Council, American Federation of Government 
Employees. He has worked as an immigration enforcement agent 
for U.S. Immigration and Customs Enforcement at the U.S. 
Department of Homeland Security since 2003. Prior to his 
service at ICE, Mr. Crane served for 11 years in the United 
States Marine Corps.
    Chris, we thank you for your service and being with us here 
today.
    Our final witness Mr. David Aguilar, the former Deputy 
Commissioner of the U.S. Customs And Border Patrol. Prior to 
this appointment, he was the Chief Patrol Agent of the Tucson 
Sector, United States Border Patrol. In that position, Mr. 
Aguilar was responsible for all operational and administrative 
functions of the sector. Previously, Mr. Aguilar served in 
various locations as a Border Patrol officer. He received an 
associate's degree from Laredo Community College and is a 
graduate of the John F. Kennedy School of Government, Harvard 
Senior Executive Fellows.
    Thank you all for joining us. And we will begin with Ms. 
Wood. Each of the witnesses' written statements will be entered 
into the record in its entirety. I ask that each witness 
summarize his or her testimony in 5 minutes or less. To help 
you stay within that time, there is a timing light on your 
table. When the light switches from green to yellow, you will 
have 1 minute to conclude your testimony; when the light turns 
red, it signals that the witness' 5 minutes have expired.
    Ms. Wood, welcome back.

 TESTIMONY OF JULIE MYERS WOOD, PRESIDENT, COMPLIANCE, FEDERAL 
      PRACTICE AND SOFTWARE SOLUTIONS, GUIDEPOST SOLUTIONS

    Ms. Wood. Thank you so much. Thank you, Chairman Goodlatte, 
Ranking Member Conyers, and Members of the Committee.
    In my view, it's very encouraging to see the progress in 
the Senate with the passage yesterday of S. 744 out of the 
Judiciary Committee. And as the Chairman has indicated, this 
Committee has also spent a lot of time looking and thinking 
about how we can improve our immigration system. And I was 
honored to be asked to testify today in my personal capacity 
because as a supporter of immigration reform, I want to help 
ensure that we don't repeat the mistakes of prior legislation.
    As such, I think it's critical that we bring some 
perspective to potential provisions in S. 744 that could be 
problematic before the bill is enacted while these issues could 
still be addressed. Of course, now any bill is not going to be 
perfect, either from an enforcement perspective or from an 
advocacy perspective. If we wait for perfect legislation, we're 
never going to have a bill, all apologies to the distinguished 
Members of the Committee.
    At the same time, I do think we have an obligation to the 
American public to seek immigration reform that would improve 
our system and not just pass our unresolved problems down to 
the next generation. Today I wanted to highlight four areas 
where I think improvements can be made to ensure successful 
reform.
    First, I think successful reform needs to protect and 
assist interior enforcement efforts. In this regard, I think 
one of the most critical things, when reading the bill--I think 
that the bill has a lot of safety valves that really have 
discretion in an immigrant's favor. And a lot of those waivers 
are needed, a lot of that discretion is needed to protect the 
rights of immigrants.
    What the bill is missing, in my view, is the same sorts of 
safety valves in terms of enforcement equities and enforcement 
exceptions. For example, in section 2101, DHS is required to 
provide all aliens apprehended before or during the application 
period a reasonable opportunity to apply for provisional 
status, and they may not remove an individual until a final 
administrative determination is made. There's no exception, 
none, for public safety or national security situations. There 
should be a public safety exception, a safety valve in favor of 
enforcement equities. I see the same sort of thing in the 
general scope of the waiver provision in section 2313. So I 
think we need to look at the bill and see, are there places 
where there need to be waivers in favor of enforcement 
equities.
    Interviews, I think, should also be required before 
granting legalization. Even IRCA required interviews. If you 
combine this with the lack of electronic filing--and I know 
it's tough, I know that's tough for USCIS--we're in a place 
where we're credentialing people who we don't know and of whose 
backgrounds we're unsure.
    In my view, to avoid fraud, the confidentiality provisions 
should be further limited in scope. Sections 2104 and 2212 in 
my view have overbroad confidentiality provisions. One of the 
most widespread problems back in 1986 was the confidential red 
sheet and the fraud it festered. While it's understandable that 
we want to encourage individuals to apply for provisional 
status, it's important that there be some consequences for not 
telling the truth. Under the current legislative framework, 
there are no consequences. Combine that with the failure to 
mandate the interview, and I think we're starting to see some 
significant vulnerabilities in this area.
    I think the issue of really tailoring the confidentiality 
provisions is particularly important given the litigation that 
occurred after IRCA. We've got to remember there's going to be 
litigation here and the Secretary has to have the discretion to 
provide this information when it's needed.
    Next, successful reform must improve the overall 
immigration court and removal process. We've got to think about 
this holistically. And I do think S. 744 provides some 
improvements in this area, particularly including the provision 
mandating counsel for certain vulnerable populations and 
increasing the legal orientation program.
    However, there are certain areas that are undermined, where 
current law is undermined. And one of those areas is I think 
the bill effectively repeals the ability to utilize stipulated 
removals. Under S. 744, stipulated removals have to be in 
person. That effectively defeats the stipulated removal 
process, a process that over 20,000 individuals have used over 
the past few years.
    Third, I think successful reform must fully address the 
third border, create an exit system that is biometric, and 
doesn't just include air, but also includes land, that's a 
comprehensive exit system.
    And finally, successful reform must provide effective tools 
to reduce unlawful employment. And thinking about the magnet 
and how we can reduce it, I think there are two provisions in 
S. 744 that are very problematic. The first one is that 
legislation appears to prohibit employers from using tools to 
combat identity theft. And that is something that I think is 
very troubling to employers. The second thing is I think the 
extraneous appellate processes, those are going to bog down the 
employment system and make a system really not work.
    As a former enforcement chief and veteran of the last 
debate, I know these are tough issues. I hope that Congress 
will consider looking at these issues and improving S. 744 to 
address some of those law enforcement concerns.
    Thank you.
    Mr. Goodlatte. Thank you very much.
    [The prepared statement of Ms. Wood follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Goodlatte. Mr. Crane, welcome.

 TESTIMONY OF CHRIS CRANE, PRESIDENT, NATIONAL IMMIGRATION AND 
    CUSTOMS ENFORCEMENT COUNCIL 118, AMERICAN FEDERATION OF 
                      GOVERNMENT EMPLOYEES

    Mr. Crane. Thank you. And good afternoon, Chairman 
Goodlatte, Ranking Member Conyers, and Members of the 
Committee.
    With my written testimony, I included a letter to Congress 
outlining general law enforcement concerns with the gang of 
eight bill on immigration reform.
    In this letter the ICE union is joined by the union 
representing U.S. Citizenship and Immigration Services. Both 
unions represent approximately 20,000 Federal employees 
handling the bulk of interior immigration enforcement. 
Additionally, 113 sheriffs nationwide are represented on the 
letter, as well as the National Association of Former Border 
Patrol Officers. Individuals and groups continue to sign the 
letter to express their concern that Senate bill 744 fails on 
matters of public safety, border security, and overall 
enforcement. I sincerely hope that Members of the House will, 
unlike the gang of eight, include law enforcement in the 
development of future legislation.
    On April 18, 2013, I attended a gang of eight press 
conference. The room was filled with supporters. There was a 
lot of joking, a lot of laughing. There was a lot of talk about 
what a great humanitarian effort this bill represents. I 
remember thinking how at that very moment ICE agents on our 
southern border were being overwhelmed by a dramatic increase 
in illegal aliens crossing the border, most claiming to have 
entered based on rumors of the new gang of eight amnesty, 
thousands of these aliens being unaccompanied children, 
runaways, making the treacherous trip across the border by 
themselves.
    Crossings by illegal aliens seeking amnesty will likely 
continue for years. Many may die or be victimized. ICE is 
already offering transfers to permanently move more officers to 
the border.
    There is a reason why many in law enforcement have 
repeatedly said let's slow this down, let's take the time to do 
this right, starting by putting enforcement mechanisms in place 
that will deter illegal entry and stop tragedies like this from 
happening.
    ``Enforcement'' is not a dirty word. Enforcement saves 
lives. Our union has been telling America and Congress that ICE 
and DHS officials are ignoring public safety, the agency's law 
enforcement mission, and the laws enacted by Congress, carrying 
out their own personal political agendas. I hope that the 
targeting of conservative groups by the IRS, as well as other 
scandals recently in the media, to include ICE and DHS lies 
uncovered last week regarding hundreds of criminal and 
convicted felons that ICE recently released into U.S. 
Communities without warning, will lend credence to what we have 
been saying for years.
    There is no oversight of political appointees and other 
high-ranking managers within Federal agencies. The heads of DHS 
and ICE have overridden Congress and determined that certain 
laws will not be enforced. They came to this conclusion shortly 
before our Nation's last presidential election. Employees 
reported that managers at ICE headquarters told employees that 
amnesty-related policies had to be implemented in advance of 
the election. Policies implemented by ICE and DHS managers have 
become so contrary to law and public safety that ICE agents 
have been forced to file a lawsuit against the heads of both 
ICE and DHS.
    According to Ken Palinkas, union president of employees, 
and employee of the U.S. Citizenship and Immigration Services, 
high-ranking managers within USCIS have implemented similar 
policies. USCIS employees are being pressured to approve all 
applications, even when red flags are present. Proper 
investigation of applications is not being done. USCIS 
employees are discouraged by managers from denying 
applications. Palinkas says USCIS has become an approval 
machine, that officers are discouraged from placing illegal 
aliens into immigration proceedings and discouraged from 
contacting ICE agents in cases that should have ICE's 
involvement.
    In closing, as law enforcement officers we have never taken 
a position on matters such as the numbers or types of visas to 
be issued or a path to citizenship. We simply seek to assist in 
creating laws that can and will be enforced and that provide 
for public safety. In our opinion, the single most significant 
task that Congress must complete in any immigration reform 
legislation is that every opportunity to take away or limit the 
authority and discretion of political appointees and Presidents 
so that the laws enacted by Congress will be followed and 
enforced. Thank you. And that concludes my testimony.
    Mr. Goodlatte. Thank you, Mr. Crane.
    [The prepared statement of Mr. Crane follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               ATTACHMENT
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
    Mr. Goodlatte. Mr. Aguilar, welcome.

  TESTIMONY OF DAVID V. AGUILAR, PARTNER, GLOBAL SECURITY AND 
                 INTELLIGENCE STRATEGIES (GSIS)

    Mr. Aguilar. Good afternoon, Chairman Goodlatte, Ranking 
Member Conyers, and distinguished Members of the Committee. It 
is truly a pleasure to be here this afternoon to testify on S. 
744. I've testified many times before this Committee, before 
other Committees as chief of the Border Patrol in Tucson 
Sector, the most active sector in the United States, as 
national chief of the Border Patrol, as Deputy Commissioner of 
Customs and Border Protection, and lastly, as Acting 
Commissioner of CBP.
    I believe this is the first time that I testify as a plain 
citizen, the most important position that any one of us can 
actually hold. I look forward to testifying today along with my 
distinguished and fellow members here.
    I believe that the subject of today's hearing is of 
critical importance to the Nation. Our country has been 
struggling with the issue of immigration reform for many 
decades. It is a matter that captures our Nation's attention 
and generates deep, some would say visceral emotions. One thing 
that the vast number of Americans agree on, and I also agree on 
this, is that our Nation's immigration system is in fact 
broken.
    I spent 35 years working the borders of our country at many 
levels within the organizations responsible for the security of 
those borders. We have made tremendous advances in securing our 
Nation's borders. Illegal immigration that flows across our 
borders must be controlled. That is something that we have to 
do. But we must understand that controlling the illegal flow of 
persons is but one of the many challenges that the men and 
women who stand the line face each and every day. Officers and 
agents also combat the illegal flow of narcotics, criminals, 
criminal organizations, weapons, bulk currency, and cartel 
activities into our country. Controlling, mitigating, managing, 
and addressing each and every one of these flows is critical to 
the security of our Nation.
    But right now, the most taxing and workload-intensive 
aspect of the job that we do, that I used to do, is the work 
that goes into controlling the illegal flow of people. A 
comprehensive and balanced immigration reform plan that 
guarantees a workable legal flow of immigrants in the future 
and thereby diminishes the flow of illegal entrants would allow 
the men and women who secure our borders to focus time and 
resources on those other threats and would significantly 
enhance our Nation's security overall.
    The best way to do this is to successfully design and 
implement a comprehensive and balanced immigration reform bill 
that will finally respond to the demands of the American people 
and fix our broken immigration system. Despite the advances in 
border security that we have made over the years, and there 
have been many, this is a problem that we cannot fix through 
enforcement alone. We need an immigration system that allows us 
to meet our Nation's labor needs, further enhances our border 
security efforts, implements an employment verification system 
with meaningful employer sanctions for violators, and provides 
a tough but fair path to legal status for the current 
unauthorized population.
    The importance of providing for future legal flows must be 
taken into account. I believe this is the most important lesson 
that we can learn from IRCA 1986. We need to make sure that 
people who come here to join close family members or to fill 
needed jobs, American jobs, come in through the ports of entry, 
are subjected to background checks, and are admitted legally 
for proper reasons and under appropriate conditions. Based on 
my current review of the bipartisan Senate immigration reform 
bill, I believe that it contains the general foundational 
pieces to set up such a successful system.
    Before I speak too much on this, but I need to put this in 
current context, is allow me to provide that context. During 
IRCA there was about 3,000 United States Border Patrol agents 
along the entire southwest border. Today there are 21,380 
operating along our Nation's southwest border. We literally 
operated with technology at the time that consisted of handheld 
flashlights, Vietnam-era sensors, very little lighting on the 
border, and certainly none of the outstanding technology that 
our agents work with today. Fencing infrastructure was 
nonexistent.
    The difference between then and now is stark. We are at a 
time of opportunity. Our Nation's borders are safer and more 
secure than they have ever been before. The flows of illegal 
crossings are at their lowest point in over 40 years. Since its 
inception, DHS has added a tremendous amount of resources and 
capabilities to the borders.
    Our partnership with Mexico is something that we must speak 
about. It has come a long way. We work very closely with our 
partners in Mexico on both sides of the border. There is a 
resolute effort to bring control to our borders. There is a 
recognition on the parts of U.S. officers and Mexican officers 
that we have a joint responsibility to secure our borders.
    Reduce crimes along the southwest border by 40 percent. 
More border fence and infrastructure than ever before, 650 
miles of border fence and infrastructure. Largest civilian law 
enforcement air force in the world, including 10 UAS's. Over 
23,000 Customs and Border Protection officers at our ports of 
entry. An 80 percent reduction of apprehensions along our 
Nation's southwest border since the peak year in 2000 when we 
apprehended over 1.6 million and a 40 percent reduction in 
apprehensions just from 2008. It is against this backdrop of 
record border enforcement that we must view the bipartisan 
immigration reform bill that is now moving through the Senate.
    A critical component of any comprehensive and balanced 
immigration reform system includes a strong means to crack down 
on the draw of jobs magnet. We have discussed already what it's 
going to take to do that. A key lesson that we should take away 
from the debacle of IRCA 1986 is that it addressed legalization 
of the illegal population and implemented what turned out to be 
a very, very weak employer sanctions program. We must address 
that.
    The Senate bill appears to meet a lot of things that we 
have spoken about today. And critically important, it provides 
for continued enforcement resources to be acquired and applied 
under strategies to be developed by DHS and CBP.
    Chairman, Committee, I look forward to any questions that 
you might have of me.
    [The prepared statement of Mr. Aguilar follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                               __________
    Mr. Goodlatte. Thank you, Mr. Aguilar.
    Mr. Goodlatte. We'll now proceed with questioning under the 
5-minute rule. And before I do so, I would ask unanimous 
consent to enter into the record four letters expressing 
concern over Senate bill S. 744. One from Senator Chuck 
Grassley from the Judicial Conference--I'm sorry. One to 
Senator Chuck Grassley from the Judicial Conference of the 
United States, sent on May 7 of this year. Another from the 
National Association of Former Border Patrol Officers, sent to 
the so-called Senate gang of eight on May 2. The third item is 
an open letter from the Coalition Against S. 744, a group of 
over 150 conservative leaders in the U.S., noting that this 
will legislation is defective and urging a no vote. The final 
letter, submitted by Mr. Crane, comes from the National 
Immigration and Customs Enforcement Council of the American 
Federation of Government Employees,* a diverse group of law 
enforcement officers and their representatives, expressing 
concern regarding S. 744 within the law enforcement community.
---------------------------------------------------------------------------
    *See letter, page 34.
---------------------------------------------------------------------------
    Also, without objection, I would ask to enter a press 
release from the American Federation of Government Employees, 
dated Monday, May 20, entitled ``USCIS Union President; 
Lawmakers Should Oppose Senate Immigration Bill, Support 
Immigration Service Officers.''
    Without objection, they will be made a part of the record.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
    Mr. Goodlatte. My first question I'll address to all three 
of you. And since I have several other questions I want to ask, 
and I'm going to try to strictly limit all the Members' time to 
5 minutes, because we have a lot of Members interested in this 
issue, I'd ask you to answer as briefly as possible.
    Is there any provision in S. 744 that would prevent the 
President from simply deciding not to enforce the immigration 
laws? Ms. Wood?
    Ms. Wood. I'm not aware of any provision that would do 
that.
    Mr. Goodlatte. Mr. Crane?
    Mr. Crane. I'm not aware of any provision that would do 
that, sir.
    Mr. Goodlatte. Mr. Aguilar?
    Mr. Aguilar. Not aware, sir. Same here.
    Mr. Goodlatte. My second question is addressed to Mr. 
Crane. How broad is the executive branch's discretionary 
authority in this bill? Do you think that S. 744 continues the 
trend toward our Founding Fathers' fear that there will be an 
all-powerful executive branch?
    Mr. Crane. That is exactly my feel for this bill, Chairman. 
It seems to give unlimited authority and discretion to the 
Secretary of DHS.
    Mr. Goodlatte. My next question is directed to Ms. Wood. 
Isn't interior enforcement an essential component of 
immigration policy in order to locate and apprehend illegal 
immigrants who have successfully evaded U.S. Border Patrol and 
who have entered legally but who chose not to leave when 
required to do so? And do you believe that this bill recognizes 
the critical nature of this interior enforcement with estimates 
as high as 35 to 40 percent of those not lawfully present in 
the United States having entered lawfully and therefore the 
border enforcement issue, while very important, is by no means 
the total enforcement issue that we need to focus on?
    Ms. Wood. Chairman, I do think that the interior 
enforcement provisions could be strengthened, that the exit 
provision in particular could be strengthened, which would 
really help us to address the problem of overstays more 
effectively.
    And then the funding stream for interior enforcement. The 
funding provided for U.S. Immigration and Customs Enforcement 
is not the same as the kind of funding that's provided to CBP 
over the years, and we have got to make sure that the interior 
of the country, those agents working there, ERO as well as HSI, 
have the resources they need to do the job.
    The other thing that I would say that I think is very 
important is that I do think the bill limits a lot of 
discretion in terms of ICE's ability to use its current 
authorities to arrest and detain individuals who may have ties 
to national security or terrorist organizations, but we don't 
have enough evidence yet to bring criminal charges against 
them. And so I think that is an area that really needs to be 
focused on, you know, does the Department have enough 
discretion to exercise law enforcement equities to hold 
individuals or to bring certain kinds of immigration charges 
against them.
    Mr. Goodlatte. Thank you.
    And, Mr. Crane, you--I'm sorry, Mr. Aguilar--you mention in 
your testimony on page 9 that one of the key takeaways from the 
debacle of the IRCA, the 1986 law, is that the same broken 
system that existed before IRCA was enacted continued to exist 
after the law was enacted. Mr. Crane suggests that the current 
Administration blocks ICE officers from enforcing our Nation's 
laws, and that is the subject of litigation right now.
    What specifically does S. 744 do to ensure that the agents 
responsible for enforcing our Nation's immigration laws are, in 
fact, able to do so.
    Mr. Aguilar. As I stated on my testimony, sir, I firmly 
believe that interior enforcement is a critically important 
aspect of any immigration reform bill. Carrying out basically, 
as Mr. Crane put forth a few minutes ago, carrying out the laws 
that are on the books currently, being allowed to do that, is 
absolutely important. It has to be allowed.
    I also added critically important is resourced at the right 
levels. That is one of the things that was not done in IRCA of 
1986. Interior enforcement was not carried out because 
investigations was not resourced, beds were not available, and 
frankly we just didn't have enough people to do the job.
    Mr. Goodlatte. Thank you very much.
    And I'm going to get all my questions in under the limit 
here.
    So, Ms. Wood, the last one is for you. And that is, why is 
it problematic for a State or locality to refuse to cooperate 
with ICE enforcement officers?
    Ms. Wood. All kind of reasons. But, you know, one of them 
is that we're paying those State and local authorities to house 
illegal aliens under the SCAAP program in certain instances. 
But if it's Federal enforcement and Federal authorities have 
the responsibility to carry out the job, your State and local 
entities shouldn't be allowed to go off on their own and create 
their own law by refusing to enforce ICE detainers or refusing 
to cooperate with ICE. It's been very problematic in the past, 
particularly when you think about the jail environment and you 
think about what ICE has tried to do with Secure Communities. 
When ICE doesn't have the cooperation from an entity like the 
difficulties ICE had with Cook County, for example, makes it 
very, very hard to rid the streets of individuals who not only 
came here illegally or are now here illegally, but also 
committed serious crimes.
    Mr. Goodlatte. Thank you very much. Thank you all.
    And the Chair now recognizes the gentleman from Michigan, 
Mr. Conyers, for 5 minutes.
    Mr. Conyers. Thank you, Chairman Goodlatte.
    I begin by noting, Members of the Committee, that we have 
joined as our guests this afternoon the United We Dream, the 
largest immigrant youth-led organization in the country, made 
up of 52 affiliate organizations in 25 States that are here to 
learn about what we're doing and to bear witness to their 
concern and desire to see that we get the best legislation on 
immigration that we possibly can. And if I may, I'd like them 
to just stand up for a moment. All the people in United We 
Dream.
    Okay. Thank you very much. You may sit down.
    We have got some big problems here. We have one witness 
that is a veteran, but unrelentingly opposed to Senate bill 
744. We have the former leader of ICE, who has put forward some 
very important criticisms of 744 in which it might be improved. 
And we have a third witness who supports S. 744. What concerns 
me is that sometimes when you're comparing what it was like in 
1986 with where we are in 2013, you know, looking back 
sometimes you always don't get it perfectly right. Nobody's 
perfect.
    But, Ms. Woods, there have been a lot that's gone on in 
that period of time, and no one would recognize that I think 
more importantly or accurately than you. Increased resources, 
agents, aircraft, build fencing, border enforcement, which we 
all know was a tragedy. And so we're trying to design an 
immigration system that provides a viable legal way for 
immigrants to come to this country. We want a path. And at the 
same time we need to combat the people that would illegally 
come in, the drug smugglers, the weapons traffickers, and all.
    Do you think we're on the right track here and with our 
discussions today and others that we might be able to come out 
of this holding our heads up, saying that we took the lessons 
of 1986 and instead of trying to trash the past and glorify the 
future, maybe there's something that people can seriously, in a 
bipartisan way, come forward with something that we'll all be 
able to acknowledge as a good faith effort.
    Ms. Wood. Yes. I definitely think we are on the right 
track. I think there are places where important improvements 
should be made and that we have an obligation to think about 
those so in 2020 we're not looking back and say, what did we do 
here, this is not an enforceable thing, we have a problem from 
a national security perspective. But I think because of the 
long-term problems we've had with immigration, we've got to 
look at reforming and changing our system. And so I'm very 
encouraged that all of Congress is thinking about how can we do 
that and how can we do that smartly.
    Mr. Conyers. Thank you very much.
    I just wanted, Mr. Aguilar, if he can, to add his 
experience. You've been a career government employee in ICE. Do 
you think we can get this thing together? Do you see that there 
is hope to develop a pathway?
    Mr. Aguilar. I do. I support this, with criticism and 
critiques that I've outlined in my testimony.
    Mr. Conyers. Yes, you have.
    Mr. Aguilar. We need to fix some of the problems that have 
been articulated here today, because if we don't, we may end up 
with a situation like IRCA. But the support that I give is 
specifically to border security. If we can reduce the flow of 
illegal aliens coming into this country, we can redirect the 
tremendous resource capability that we have against the other 
threats, vulnerabilities, and risks that are very much real on 
today's border.
    Mr. Goodlatte. Thank you, Mr. Aguilar.
    Mr. Conyers. Thank you very much, Mr. Chairman.
    Mr. Goodlatte. Time of the gentleman has expired.
    The Chair recognizes the gentleman from Wisconsin, Mr. 
Sensenbrenner, for 5 minutes.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    I think all of us here, and I certainly subscribe to that, 
say that our current immigration system is broke. And I think 
we have to look at both the legal immigration and the illegal 
immigration part to figure out how to fix it and fix it in the 
best way possible.
    I certainly salute the people who have been working on 
this. This is a minefield, and as the person who tried to do 
this last, in 2005 and 2006 and 2007, let me say that this 
isn't easy and it probably is the most difficult thing that the 
Congress will have to face because there are so many 
conflicting interests involved.
    The Chairman in his opening statement referred to the 
select commission that was appointed by President Carter in 
1979 and was headed by Father Theodore Hesburgh, who at that 
time was the president of Notre Dame University and is being 
honored here this week, on his 96th birthday. Father Hesburgh 
was an admitted liberal. He still is and will tell you that. 
And his commission came up with a recommendation that basically 
said that we have to control the border and we have to enforce 
employer sanctions. And, significantly, he said that they 
should not--or Congress should not have any form of 
legalization or amnesty until the border control and the 
employer sanctions were in place, lest that bring about an 
increase in illegal immigration in the country.
    Well, Congress ignored the select committee's 
recommendations, passed IRCA. Father Hesburgh was right and 
Ronald Reagan was wrong, because we had about 3.5 million 
illegal immigrants in the country then and now we have about 11 
million illegal immigrants.
    The fear that I have is that unless we effectively control 
illegal immigration now, we will be slowly closing the door to 
legal immigration, because if one can become a citizen of the 
United States after breaking our laws quicker than jumping 
through all of the hoops both before their entry and after 
they're here to be able to be naturalized as a United States 
citizen, who's going to bother obeying the laws and filing 
applications for an immigrant visa at our embassies and 
consulates overseas. And that will mean that we repeat the 
mistake of IRCA and probably compound it even more.
    I think this is our last best chance to get it right, and 
we better get it right this time, otherwise we are going to 
have a system that is even worse and a problem that is even 
bigger than what we have today.
    Now, my question is, looking at Senate bill 744, what three 
changes do you think are necessary to make sure that the 
mistake of IRCA is not repeated? And in what order priority 
would you suggest these changes?
    And we'll start with Mrs. Wood.
    Ms. Wood. Thank you. And I certainly agree that we've got 
to address this now in order to avoid repeating the problems.
    I think first I would deal with the employer verification 
section. Five to 7 years is too long for all employees to have 
to go through the system. And the inability to verify an 
existing workforce is going to create an uncleared workforce. 
And so there's going to be a lot of illegal migration and 
problems with that workforce. And so I think that needs to be 
addressed and fixed.
    Mr. Sensenbrenner. Well, it would make the existing 
workforce effectively indentured servants.
    Ms. Wood. That's exactly right. And unscrupulous employers 
could take advantage of those individuals, you know, pay them 
substandard wages or treat them poorly. It's problematic for a 
whole host of reasons.
    Second, I think the government's really got to address the 
identity theft issue more strongly and more effectively, kind 
of from day one, to give the employer some tools. And if 
they're not going to give the employers tools, at least take 
away the provision in 744 that appears to prohibit employers 
from using some of the manual and automated tools that they are 
currently using. I think that's a big problem for companies who 
are really trying to wrestle with how does a good faith 
exception apply to us if we repeatedly have people that evade 
the existing E-Verify system. So I would focus a lot of effort 
on that.
    I think the second thing is resources. Make sure that 
interior enforcement has enough resources and that the court 
system has enough resources. If it were me, I'd revamp the 
whole immigration court system. That may not be realistic. You 
know, we're biting off an awful lot. But, you know, kind of 
look at that.
    And then third, make sure national security equities are 
protected.
    Mr. Sensenbrenner. Thank you.
    I think my time has expired.
    Mr. Goodlatte. The gentleman's time has expired.
    And the gentleman from New York, Mr. Nadler, is recognized 
for 5 minutes.
    Mr. Nadler. Thank you, Mr. Chairman.
    Prior to IRCA, we had a largely unenforced border. We had 
something like 2,100 border enforcement people for the entire 
border. We made very little attempt to enforce the border 
crossings. And yet in the 22 years between the end of the 
Bracero program in 1964 and IRCA in 1986, it's estimated that 
28 million people from Mexico entered the U.S. and 23.4 million 
returned to Mexico, that there was a, in a largely unenforced 
border and no law preventing U.S. Employers from hiring 
undocumented individuals, there was a circular migration 
pattern and very little net migration, illegal migration to the 
United States.
    But this began to change in 1986. And some people have 
observed that once we started really enforcing the border and 
people no longer felt free to come and go, people came here, 
stayed, and brought their family because they were afraid to 
try to go home and then to try to come back again. And the 
median stay of undocumented Mexicans before 1986 was 2.6 years; 
by 1988 it had risen to 6.6 years.
    This seems to say that border enforcement spending all that 
money simply got us a lot more net illegal immigration. Would 
you comment on that? Ms. Wood, then Mr. Aguilar.
    Ms. Wood. I'm not familiar with that, those particular 
statistics. But I think, you know, we have to look at are there 
unintended consequences, like you said, and would this bill 
create any unintended consequences, kind of we're not happy 
with. And if we have a workable program where temporary workers 
can come in, where supply meets demand, then hopefully we won't 
see those things.
    I will say, as head of ICE, we did see seasonal shifts in 
migration. So there were a lot of people that were, you know, 
coming in and going back home. So we did see that sort of 
activity as well----
    Mr. Nadler. And less after IRCA or no big change from IRCA 
or
    Ms. Wood. I wasn't there in 1986, so this was more recent. 
But maybe----
    Mr. Nadler. Mr. Aguilar?
    Mr. Aguilar. I'm a little older than Ms. Wood, so I was 
there.
    What you just described so adequately, Congressman, are the 
results of a broken immigration system. We added border 
enforcement. We should have added that. What we didn't add was 
interior enforcement. What we didn't add was strong employer 
sanctions. What we didn't add was strong employer verification 
capabilities. And we didn't add the follow-up capabilities of 
the illegal population in the country. When you add one piece 
of what is required, those are the results.
    Mr. Nadler. And do you think S. 744, whatever the number is 
of the Senate bill, does a reasonable job of integrating these 
different pieces?
    Mr. Aguilar. It does a reasonable job. There are some 
critiques and criticisms that we have. You've heard some of 
them already. But this is first time that we actually get a 
comprehensive piece of legislation that addresses what I 
believe all of us think are foundational to a good immigration 
system.
    Mr. Nadler. And so you think that with the increased border 
enforcement that we've been doing and will continue to do, and 
with the E-Verification system and the verification here, and 
with trying to match employee needs and employment, that is, 
needs for employees and available workers, we should have a 
balanced system where we can in fact enforce the law?
    Mr. Aguilar. Yes. If we do this right, yes, sir.
    Mr. Nadler. So this would be very different from IRCA then. 
The lesson to learn from IRCA is not to do a one-sided 
enforcement law without also dealing adequately with the 
employment needs. Is that correct?
    Mr. Aguilar. Yes. It should be comprehensive. It should be 
holistic to the degree possible, as quickly as possible, in 
order to go ahead and get this system in place.
    Mr. Nadler. Okay.
    Now, Ms. Wood, in your testimony you make one caveat that I 
think is fairly striking. You say in a footnote that you will 
not address the enforcement triggers in the Senate bill but 
rather focus on how the bill will work if enacted. But those 
enforcement triggers are presumably in the bill for a reason 
and designed to help answer criticisms of the 1986 law.
    Don't you think that by including enforcement triggers tied 
to the registration of the undocumented and the ability of 
provisional immigrants to obtain green cards, the Senate bill 
guarantees that certain specific enforcement provisions will in 
fact take place?
    Ms. Wood. I think that there are some, you know, 
limitations on the triggers and some qualifications on the 
triggers. I didn't address those because I think reform needs 
to happen regardless of those triggers and that we need to look 
at our system regardless of those triggers, but, you know, if I 
were to go through those, I think they could be stronger, that 
the Secretary should have more requirements, that we shouldn't 
allow litigation to keep agencies from doing things, et cetera.
    Mr. Nadler. Okay. And my last question is, you begin your 
testimony by saying that IRCA's two-pronged approach of 
legalization and employer sanctions failed to stop the tide of 
unauthorized employment. That's obviously true. But the main 
reason for that, as Mr. Aguilar and I discussed a moment ago, 
is that IRCA did not include additional necessary prongs. IRCA 
set up two seasonal guest worker programs that are proving to 
be problematic and did nothing to reform our laws to provide a 
viable way for people to come to the country to fill needed 
nonseasonal, lower-skilled jobs, and did nothing to help 
families reunify.
    So if the reason IRCA failed isn't because its enforcement 
provisions weren't tough enough, but rather because the 
immigration system it left behind didn't work any better than 
the system that existed before the bill was enacted into law, 
isn't that our main charge today, to design an immigration 
system that works so well that families, businesses, and people 
in search of work are encouraged to go through the system 
rather than around it?
    Ms. Wood. We definitely want to encourage people to go 
through the system rather than around it. I do think that some 
of the enforcement provisions in IRCA did fail and I think they 
weren't strong enough, they weren't resourced enough. So I 
think it's more than just the demand side. I think it was also 
the enforcement side where there was good language but there 
was not a lot of follow-up.
    Mr. Nadler. I see my time has expired. Thank you.
    Mr. Goodlatte. I thank the gentleman.
    The Chair is now pleased to recognize the gentleman from 
Texas, Mr. Smith, for 5 minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    Let me address my first question to all of our witnesses 
here today, and it is this. I believe that I have read the 
relevant provisions of the Senate immigration bill, and in 
regard to border enforcement, and I cannot find any deadline by 
which the border is to be secured.
    And my question, Mr. Aguilar, we'll start with you, if you 
will, is there any year by which we can tell the American 
people that the border will be secured under the terms of the 
Senate immigration bill?
    Mr. Aguilar. I think the first challenge that we have, 
Congressman, and I believe you and I have discussed this 
before, is the definition of ``secure.'' Secure right now 
holds----
    Mr. Smith. Beyond the definition of ``secure,'' let's just 
assume that we agree on that. Is there any year by which, under 
the provisions of the immigration bill, that the border will be 
secure under any definition?
    Mr. Aguilar. Let me describe what would, I think, get us to 
a position of acceptance at the border.
    Mr. Smith. No, no, and I understand that. With all respect, 
I understand what the bill said. But is there any year by which 
the American people can be assured that the border, in fact, 
will be----
    Mr. Aguilar. Not within the bill, not right now, no, sir.
    Mr. Smith. Okay. Thank you.
    Mr. Crane?
    Mr. Crane. None that I'm aware of, sir.
    Mr. Smith. Okay.
    And Ms. Wood?
    Ms. Wood. None that I'm aware of either.
    Mr. Smith. Okay. In that case, why aren't we setting 
ourselves up for the same problems we had with the 1986 bill if 
we aren't able to assure the American people that we are going 
to secure the border by a time certain?
    And let me reverse the order. Ms. Wood?
    Ms. Wood. For the hard one, you turned over. I think----
    Mr. Smith. If we don't have a secure border and there is no 
guarantee that we will ever have it, why are we repeating the 
same problem we had from 1986?
    Ms. Wood. The reason I believe we need to address 
immigration and fix it right now is because there is not enough 
resources. So some of the things I think the bill does address 
and should address in a different way to get toe security of 
the border is an exit system. Have a real robust exit system.
    Mr. Smith. I understand that, and I appreciated your answer 
a few minutes ago.
    Mr. Crane?
    Mr. Crane. Yes.
    Mr. Smith. Why are we setting ourselves up for the same 
problems if we can't have a secure border----
    Mr. Crane. I think that's exactly what we're looking at. I 
mean, I think that there's a complete lack of interior 
enforcement in this legislation. I don't think there is any 
real triggers at the border. I don't think this has been well 
thought through, and I think that that's exactly where we're 
headed with this legislation.
    Mr. Smith. Okay. Let me go to another question because Mr. 
Sensenbrenner started the question. You all did not have a 
chance to respond, Mr. Crane and Mr. Aguilar. And that is this, 
and I am paraphrasing him: What provisions do we need in any 
immigration reform bill in order to avoid the problems of 1986? 
You all have given some partial responses to that, but if you 
were to give the top two or three provisions that we need in 
order the avoid the problems of 1986, what would those 
provisions be in an immigration reform bill?
    Mr. Crane first, and then we'll go to Mr. Aguilar.
    Mr. Crane. Okay. I think that first and foremost, like I 
said in my original testimony, that we need to take away as 
much discretion and authority away from political appointees.
    Mr. Smith. And is that because we don't have confidence in 
Administration officials or in the President to enforce 
immigration laws?
    Mr. Crane. That's absolutely correct.
    Mr. Smith. What immigration laws has the Administration not 
enforced to date?
    Mr. Crane. Well, quite a few, but, you know, one, for 
example, is public charges. Others being right now, illegal 
entry and visa overstay. You know, basically we have to 
establish that the person has been convicted of multiple 
criminal offenses before we can even make an immigration 
arrest.
    Mr. Smith. Okay. And, Mr. Aguilar, to go back to the 
original question, what provisions should we have in any 
immigration reform bill so that we could avoid the experience 
we had in 1986?
    Mr. Aguilar. The top three would be continued border 
enforcement under this Senate bill. It's the southwest border 
strategy and the fence strategy. Second would be a very, very 
strong and robust interior enforcement program. And thirdly, to 
the discretion piece, is to ensure that we're doing everything 
we can at the border and in the interior to ensure the national 
security and public safety concerns are being addressed.
    Mr. Smith. Now, as far as interior enforcement goes, isn't 
it the case that this bill is actually weaker than current law 
when it comes to interior enforcement? And I'm thinking here of 
an entry/exit system. The Senate bill only has that kind of an 
entry/exit system at airports and seaports, not land ports. 
Current law says land ports, which of course is where most of 
the illegal entries occur. So why wouldn't this bill be even 
weaker than current law when it comes to interior enforcement?
    Mr. Aguilar. The current bill, right now, asks for air and 
sea. Do we need the land exit?
    Mr. Smith. Right.
    Mr. Aguilar. Yes.
    Mr. Smith. Okay. Which is current law.
    Mr. Aguilar. Which is current law.
    Mr. Smith. So this bill is weaker than current law?
    Mr. Aguilar. And as the head of CBP, I can tell you that we 
went to everything that we could. It is literally impossible at 
this point in time.
    Mr. Smith. I understand, but the question is, by 
definition----
    Mr. Aguilar. Yes, I would agree with that. Yes, sir.
    Mr. Smith. Okay. Thank you all for your questions.
    Mr. Chairman, yield back.
    Mr. Goodlatte. I thank the gentleman.
    The gentleman from Virginia, Mr. Scott, is recognized for 5 
minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Crane, you talked about lack of enforcement. How do 
other Administrations compare in enforcement of immigration 
laws?
    Mr. Crane. I could speak mainly, sir, to the Bush 
administration.
    Mr. Scott. Uh-huh.
    Mr. Crane. And we did have some difficulties during the 
Bush administration, especially during the first 4 years. 
However, during the last 4 years of that Administration, they 
did pick up the pace. We did start getting resources, we did 
start getting more people, and we did have more flexibility to 
enforce the law, in particular in jails and prisons and things 
like that.
    Once this Administration came on board, there was pretty 
much an immediate stop to that, and we've kind of been on a 
roller coaster every day with regard to who we can and cannot 
enforce. And currently we can't really do a whole lot in terms 
of interior enforcement.
    Mr. Scott. What about deportations, how do they compare?
    Mr. Crane. Well, obviously, deportations are higher and 
have continued to get higher year after year.
    Mr. Scott. Higher under this Administration?
    Mr. Crane. Well, let me specify on this. First of all, the 
interior enforcement numbers, I'm going to tell you no, because 
ICE interior enforcement numbers have actually gone down. 
They're taking border patrol arrests, turning them over to ICE, 
and then we're removing them and counting those as ICE 
enforcement numbers when in the past both agencies were doing 
their own enforcement and our interior enforcement numbers were 
much higher.
    Now, anecdotally, I can also tell you, the last 4 years our 
officers are sitting around looking at each other saying we're 
not able to go out and arrest anybody, what are we doing? We 
can't even get prisoner transportflights to land in respective 
cities because we don't have enough people to put them on 
there. So, yes.
    Mr. Scott. So resources. What did sequester do to the 
Administration's ability to enforce the law?
    Mr. Crane. What did sequester do, sir?
    Mr. Scott. Right.
    Mr. Crane. Well, sequester up to this point for ICE I don't 
think has had a really big effect.
    Mr. Scott. Ms. Wood, what is the present law on employment 
verification and how does S. 744 change that?
    Ms. Wood. Right now, and in fact it was required first 
under IRCA that employers have to use the form I-9. So anyone 
that is hired, you have to use a form I-9 for that. There is E-
Verify, the former basic pilot system, which is not mandatory 
except for Federal contractors, and some are also required to 
use that if they are in a plea agreement or something with ICE.
    Under S. 744, it would phase in a mandatory system like E-
Verify over a period of 5 to 7 years for all employers, and 
then it would not allow those employers to use that system on 
their current workforce to E-Verify essentially existing 
workers. It would also limit the ability of employers to use 
anti-fraud tools. So some employers in high-risk workforces use 
some anti-fraud tools to prevent identity theft. This bill 
appears to prohibit that while--and those employers are worried 
that they could be subject to the enhanced criminal penalties 
under S. 744.
    Mr. Scott. Comments have been made about the fact that we 
don't keep track of people when they're in the country, when 
they're coming and going. How much would an entry/exit software 
system cost, if you know?
    Ms. Wood. I can't give a precise number. Certainly it would 
be expensive to do that. Other countries do have regulated 
entry and exit systems, and it has been a requirement for, I 
think, 16 or 17 years to have an exit system.
    Mr. Scott. Does anybody have an estimate on the cost of 
that? Can anybody make a comment about those who are here 
without documentation, how many got into the country legally 
and because they overstayed their visa or are no longer in 
school, so forth, are not presently legal? How many people got 
here legally but are now not?
    Ms. Wood. Some of the estimates are between kind of 30 and 
40 percent of all individuals who are not currently in the 
country legally. Initially came legally but then overstayed 
their visas.
    Mr. Scott. Is that----
    Mr. Aguilar. That is correct. That's the approximation.
    Ms. Wood. But we don't know. That's the problem. That's 
part of--yeah, that's part of what we need to address.
    Mr. Scott. Thank you, Mr. Chairman. I yield back.
    Mr. Goodlatte. I thank the gentleman from Virginia.
    And the Chair now recognizes the gentleman from Alabama, 
Mr. Bachus, for 5 minutes.
    Mr. Bachus. Thank you.
    Ms. Wood, you wrote an article on March 28th in the 
Washington Times.
    Ms. Wood. Yes.
    Mr. Bachus. And let me quote you: ``The government's 
purpose in detaining immigrants is not to punish them, but to 
ensure that they show up for hearings and comply with removal 
orders. In many cases, though, detention is not the best way to 
achieve these goals. Alternatives to detention are both routine 
and effective. They're employed every day, not just in the 
immigration system, but in the criminal justice system of all 
50 States and the Federal Government.''
    I also believe in that statement. Can you explain your 
views on the importance of alternatives to immigration 
detention and what are some of the examples?
    Ms. Wood. Certainly. And let me say I do believe that there 
are some individuals that must be detained; otherwise, they 
won't show up for their hearings or they pose a significant 
public safety threat.
    Mr. Bachus. Right.
    Ms. Wood. And so it's important that ICE conduct an 
individualized assessment to see whether or not a particular 
individual should be detained or whether there are less 
restrictive means.
    For many of the individuals that come through the Secure 
Communities program, regardless of whether 236(c) was on the 
books, those would be individuals where detention would be 
appropriate. But for many others, alternatives, you know, could 
work very well. And the current alternative to the detention 
system, and I do assist the company that's currently providing 
that, has had a lot of successes. And what we have seen is that 
immigrants who are in the alternative to detention system, they 
show up for their hearings, their final hearing 99 percent of 
the time. And they, if they're ordered removed, they comply 
with that removal order 84 percent of time. If you compare to 
individuals who are not detained but not on any sort of system, 
you have about a 13 percent rate of compliance for those.
    So, there are really--I think there are a lot of tools that 
ICE has, everything from release on recognizance, to bonds, to 
alternatives working with the NGOs, to ICE-led initiatives, to 
detention, and I think it's important that ICE look at all of 
those to see how could we be most effective in a cost-effective 
manner that when somebody is ordered removed, they actually 
comply with those orders.
    Mr. Bachus. Thank you. You have concerns with the Senate 
bill, but I believe I also heard you say that the enforcement 
provisions, and the interior enforcement, particularly, would 
be stronger than what existed in the 1986 legislation. Is that 
correct? I mean, I know we've been comparing the Senate bill to 
the 1986 bill, and I see a lot of differences in those two 
pieces of legislation.
    Ms. Wood. I mean, certainly there are some portions which 
are stronger than 1986. For example, the requirement at some 
point that all employers go through E-Verify, that wasn't 
around, you know, back in 1986, so that is an area that's 
strengthened.
    I do think that the bill needs a good law enforcement red 
line, to go through and see are there unintended consequences, 
are there tweaks where words were added in or added out that 
might really affect ICE's ability to enforce law enforcement 
equities when needed.
    Mr. Bachus. So, Mr. Aguilar, the Tucson area of the border, 
you've made tremendous strides in security there. I think you 
are up to about 85 percent, or 80, 85 percent enforcement. And 
I think the problems are more El Paso and other parts of the 
border. How easily is it to obtain your enforcement level that 
you obtained along the border in Tucson with those other areas?
    Mr. Aguilar. It is attainable by adding the right type of 
the requirements and needs that we have. In the case of Tucson, 
it was additional personnel, infrastructure, accessibility to 
the border, and technology. We have done that in Tucson and 
it's worked very well. By the way, we did that in Yuma also, 
and Yuma is actually in better shape than Tucson.
    Mr. Bachus. That's right. I noticed it, and I want to 
compliment you because, I mean, you know, we talk about an open 
border, and certainly I don't think that describes Yuma or 
Tucson.
    Mr. Aguilar. Correct.
    Mr. Bachus. So I see my time has expired. Let me say, I 
don't think President Reagan made a mistake when he allowed the 
3 million immigrants who were here to obtain legal status. In 
fact, I think they've been great contributors to our economy, 
and he said these families came to work, they came to build, 
they believed in America, and I think they've made America 
better. And I think the same thing can be true of the vast, 
vast majority of immigrants today, and I hope we won't lose 
sight of that and say in any way that Ronald Reagan was 
mistaken to believe in the value of immigration or the value of 
these 3 million now Americans that contribute and their 
families.
    Thank you.
    Mr. Goodlatte. Thank you, Mr. Bachus.
    The gentleman from North Carolina, Mr. Watt, is recognized 
for his question.
    Mr. Watt. Thank you, Mr. Chairman.
    You know, I served as the Ranking Member of the Immigration 
Subcommittee for one term in this Congress and the one thing I 
learned more than anything else is that the devil is in the 
details of this. And so I think the Committee would probably be 
better served and I would be better served to have the people 
who have been really working on this issue have the opportunity 
to ask more questions. So I'm going to yield my time to Mr. 
Gutierrez rather than ask questions that other people may have 
already asked.
    Mr. Gutierrez. Thank you, Congressman Watt.
    I would like to ask a question of Mr. Crane. As part of the 
solution to our broken immigration system, do you believe that 
we should give a pathway to legalization to the 11 million 
undocumented workers that currently exist in the United States, 
and do you believe that that would help with enforcement issues 
here in the United States.
    Mr. Crane. Well, sir, first, like I said in my original 
testimony, that's something we do not weigh in on.
    Mr. Gutierrez. That you don't weigh in on. I guess a 
plumber wouldn't weigh in on stopping leaks either. I guess 
that would be----
    Mr. Crane. I'm sorry?
    Mr. Gutierrez. So you don't have a----
    Mr. Crane. I'm sorry, I didn't hear----
    Mr. Gutierrez [continuing]. You don't have a position? You 
have an enforcement position but you don't have a position on 
whether or not we can allow 11 million people to legalize in 
the United States? You don't think that that helps to solve the 
problem of enforcement?
    Mr. Crane. Well, respectfully, sir, what we're trying to do 
is let America and let lawmakers craft what type of, you know, 
system we're going to have in the future, whether 
legalization----
    Mr. Gutierrez. Let me ask Ms. Wood that. Do you think----
    Mr. Crane. Sir, could I--okay.
    Mr. Gutierrez. Do you think that legalizing 11 million 
people that currently live in the United States would help to 
secure America?
    Ms. Wood. So long as we do that properly and we go through 
an appropriate process, yes, I do.
    Mr. Gutierrez. Thank you.
    Mr. Aguilar, do you believe that legalizing would help the 
Border Patrol that you used to head secure the border, 
legalizing the 11 million that are currently here, make America 
a safer place for us?
    Mr. Aguilar. Doing it in the right way and the right 11 
million people, yes, sir.
    Mr. Gutierrez. Great. You know what, I really like the 
right 11 million people, because I think the vast majority of 
those that are undocumented in this country need an opportunity 
and are the right kind of people that America needs and that 
they are working very, very hard.
    I just want to say that, to my colleagues, I've introduced 
bipartisan, bicameral legislation with then Congressman Flake, 
now Senator Flake, and Kennedy and McCain, and I assure you, if 
you go back to that bill, it was about 700 pages, and all I got 
criticism was about the first 400 pages. They said, oh, Luis, 
how could you, an advocate of immigrants, ever want an E-
Verification system, how could you want more Border Patrol 
agents, how could you want more entry and exit? Look at the 
book? It is very much, how could you put triggers that if these 
things are not accomplished, those that you care most about, 
the undocumented workers in this country, don't ever achieve 
American citizenship?
    You want to know why? Because I detest the system, the 
broken immigration system, and I want to work with the other 
side of the aisle to fix that broken immigration system, 
because I think--in your former job, I mean, we hear about the 
sexual exploitation that exists in the armed services of our 
women. Did you ever come across evidence, as I have, as I've 
visited the fields in Salinas or I've gone to apple groves in 
Washington State or citrus farms in California or even 
Postville where I interviewed many women who talked about the 
sexual exploitation that they were submitted to day in and day 
out, did you ever come across that information?
    Ms. Wood. Certainly ICE pursued a number of human 
trafficking and sex trafficking cases, and, you know, is very 
concerned about that and supporting appropriate visa program 
for those individuals.
    Mr. Gutierrez. And isn't sexual exploitation of 
undocumented women and our broken immigration system a stain on 
our society that we are allowing that to continue to happen?
    Ms. Wood. I mean, all kinds of exploitation is a stain on 
our system. It means that we should move forward in a positive 
manner.
    Mr. Gutierrez. Because when we do separate--Ms. Wood, would 
you agree we do separate American citizen children from their 
parents, that there are millions of American citizen children 
whose parents are undocumented, and when they are picked up and 
deported they leave behind their American citizen children?
    Ms. Wood. Obviously they can make the decision to take 
those kids with them. But those are all the reasons why the 
current system----
    Mr. Gutierrez. I just wanted to make sure that somebody 
from your position that was invited by the majority, would you 
just agree that this is what happened? So we agree that there 
are millions of American citizen children who shouldn't wake up 
every day to fear an ICE agent knocking on their door and being 
snatched from their parent's arms, but it happens.
    And I just want to conclude by saying, to say that it 
immediately stopped when this Administration. This 
Administration has deported 400,000 people a year at a record 
pace each and every year during the last 4 years. It has a 
voracious appetite for deportations. And you know what? I want 
to end that, but I want to end it in a smart, effective way, 
and we will give you the smart tools of enforcement in order to 
get that done.
    Thank you so much.
    Mr. Smith. [Presiding.] Thank you, Mr. Watt. Thank you, Mr. 
Gutierrez.
    The gentleman from Pennsylvania, Mr. Marino, is recognized 
for his questions.
    Mr. Marino. Thank you, Chairman.
    First of all, I am not going to criticize the authors of 
these 867 pages, which I have in the past attempted to read and 
reread. My background is prosecution and law enforcement, but I 
taught a little bit, and I always told my students, the most 
difficult thing to do is first draft of whatever you're 
writing. It's real easy for someone else to edit it after it's 
written because all the work, the brain power has gone into 
getting something on paper, so I commend my colleagues.
    However, with that being said, I think we need to go back 
through this document, both sides of the aisle, converse more 
between the Senate and the House, and I'm sure that we will be 
able to edit, refine, and address issues that each one of you 
brought up. I think that's critically important, to address the 
issues that you brought up.
    So if I may ask again, and these questions were asked in 
different ways, but if each one of you could specifically 
suggest on what we could do to improve this new legislation but 
yet at the same time holding those responsible that are here 
illegally on how to address that. Do you understand my 
question, Ms. Wood?
    Ms. Wood. I believe so. What would I do to change the bill 
while holding those responsible?
    Mr. Marino. Yes.
    Ms. Wood. I would require in-person interviews, limit 
confidentiality, and have consequences for not telling the 
truth for those who go through the system, and then allow law 
enforcement to use that information as we look at further 
legalizations or adjustments. So that would be one thing.
    Second thing would be to develop a biometric exit system 
which would help people--hold them accountable by making sure 
we know who is going in and out, and have it also affect the 
land borders, not just sea and water. And third would be really 
to fix the employment verification.
    Mr. Marino. Mr. Crane, please?
    Mr. Crane. Well, sir, kind of on your first comments, I'd 
just like to say a lot of our frustration, I think, on the law 
enforcement end comes into play because of the way this is 
being handled by the gang of eight, the way it's being shoved 
through so fast.
    You know, this has been going on for a while. We've got a 
little bit of time. We need to get this right. I think an 
important part of that is we need to bring law enforcement in, 
people that actually do this job out in the field, and take a 
look what's working now and what's not working.
    Mr. Marino. Let me stop you right there. I agree with you 
100 percent. In my past life in industry, I brought in the 
frontline people when we sat down to build a factory, per se, 
and got not only input from the architects and engineers, but 
from the people who were going to work that line and produce a 
product. I agree with you. We absolutely have to bring in the 
frontline officers. We have to interview as many as we possibly 
can. We have to get your thoughts down in this process.
    Now, I don't know how much that was done, but if it were 
done at all, I suggest that we do it even more intently and 
take our time on these documents.
    Now, there was an issue, I agree with my colleague on the 
other side of the aisle concerning what do we do with the 
children. That's not only a factual issue but an emotional 
issue that we need to deal with. But would you please explain 
again, you brought up a little bit in detail on what has been 
referred to in the media about this Administration cooking the 
books on those that they've sent back. And my colleague, my 
friend on the other side said, you know, there were 
astronomical numbers. Again, would you explain how you perceive 
those numbers to be inflated?
    Mr. Crane. Basically, the information we have has come from 
a lawsuit. It's information that we never had before. And those 
numbers indicate that basically Border Patrol apprehensions, 
people that initially would have just been turned back, 
voluntary returns, are being taken into custody, turned over to 
ICE, then ICE is, you know, moving them down the border and 
doing a deportation. So previously more and more of those 
numbers would have been ICE internal arrests and deportations.
    Mr. Marino. Is it correct to say that you could have sent 
them back across right then and there?
    Mr. Crane. It's correct to say that the Border Patrol----
    Mr. Marino. Border Patrol.
    Mr. Crane [continuing]. Could have sent them back in most, 
if not all of those cases instead of turning them over to ICE.
    Mr. Marino. Ms. Wood, I see you shaking your head. Do you 
agree with that?
    Ms. Wood. It is my understanding that that is what 
occurred.
    Mr. Marino. Okay.
    Ms. Wood. You know, they may have thought there was an 
enforcement reason. Perhaps in their view it was a deterrent 
effect to transfer these individuals over into ICE custody. But 
it was a change in prior practice and it did affect, you know, 
approximately 20,000 removals a year.
    Mr. Marino. Okay.
    Mr. Aguilar, I see my time has expired, but quickly please?
    Mr. Aguilar. All right. As a prosecutor, sir, you know the 
consequences are absolutely critical for any actions illegally 
done. What Mr. Crane just described is historically the Border 
Patrol would in fact apprehend and just turn right back, the 
so-called revolving door.
    Mr. Marino. Yeah.
    Mr. Aguilar. We implemented a consequence delivery system 
that basically for every apprehension, because we finally had 
the capability because of the lower numbers, to take each 
individual alien apprehended and take a look at what 
consequence should be applied in order to have an impact, a 
negative impact on that person crossing back across the 
country. In the past, we could have turned them back, but 
placing them through formal deportation, detaining them in 
front of a judge, sending them back, that process, we found, 
has a dramatic impact of consequences on those aliens.
    Mr. Marino. Okay. I see my time has expired, but all three 
of you, do you mind if my office tries to set up a meeting 
between individually the three of you because I find your 
testimony to be extraordinary and I am very interested in you 
educating me further on this.
    Mr. Crane. Yes, sir
    Ms. Wood. Yes.
    Mr. Marino. I yield back. Thank you.
    Mr. Smith. Thank you, Mr. Marino.
    The gentlewoman from California, Ms. Lofgren, is recognized 
for her questions.
    Ms. Lofgren. Well, thank you, Mr. Chairman.
    And to all three of our witnesses, thank you for your 
testimony.
    I am mindful that there are lessons to be learned from the 
1986 act. Those who criticized the enforcement efforts were 
right, both in terms of employment-based. I think Mr. Aguilar's 
testified quite powerfully about, you know, the amount of 
efforts made, you know, and the kind of equipment they have and 
the numbers of personnel. But I think there is another element, 
which is, yes, there were 3 million people legalized, but there 
was really no effective provision for people to come in very 
well in the future.
    The H-2A and the H-2B program have been very roundly 
criticized both from employers and labor unions, both sides 
hate them. I'm mindful that they haven't really worked all that 
well in some case. And I guess, you know, I'm thinking about a 
number of years ago when I chaired this Subcommittee and we had 
Dr. Richard Land from the Southern Baptist Convention as a 
witness, and I always mention that because I don't want to 
steal his line, but he said for years and years that we had two 
signs at the southern border. And Dr. Land said one sign says 
``no trespassing,'' and the other sign says ``help wanted.''
    And, you know, when you look at it, we have 5,000 permanent 
resident visas a year for so-called unskilled. I think of it as 
noncollege-educated employees. And we've got 2 million migrant 
farm workers. So clearly we did not set up a system to meet 
America's economic needs.
    And also, you know, there is backlogs in some cases of 
husbands and wives of legal residents being separated for half 
a decade, you know, and so that may have also--I'm not 
condoning not living within the law, but you know, families 
trying to get together. That's a human phenomena.
    We've had, since that time, tremendous increases in 
enforcement. I note that the year I took office, 1995, ICE 
detained 85,730 people. In the year 2011, they detained 
429,247. So I mean, that's a dramatic change.
    Here's my question to you, Mr. Aguilar. I've always admired 
you. I mean, you started on the line and you worked your way up 
all the way to the top of the agency, so you've seen it from 
every which way. Here is the question. If you could do only one 
of these two things today, further increase resources, add 
agents, aircrafts, fencing, towers, sensors, or design an 
immigration system that provides a viable legal way for 
immigrants to come to the country to fill needed jobs or to 
reunite with their loved ones, which alternative do you think 
would have the greatest impact in reducing unauthorized entry 
into the United States?
    Mr. Aguilar. At this point in time----
    Ms. Lofgren. Yes.
    Mr. Aguilar.--I think the latter, and the reason for it is 
because it would redirect the illegal entry of people looking 
for jobs through the ports of entry; therefore, relieve the 
responsibility of Border Patrol agents having to deal with, in 
the case of last year, 356,000 interdictions. It could then be 
redirected to the other threats.
    Now, we will still deal with criminal aliens, we will still 
deal with criminal organizations and all of the other things 
that we spoke about. But I truly believe that by reducing that 
flow of illegal people into this country, it would be one of 
the biggest force multipliers that the United States Border 
Patrol could receive today.
    Ms. Lofgren. Now, luckily we don't have that choice before 
us because we can do both. We can improve our system so it 
meets the needs of the American economy and American families, 
but we also can do more on enforcement, both in the workplace, 
we've talked about the E-Verify system, also additional steps. 
I am mindful that just last week the Homeland Security 
Committee, which has jurisdiction actually over the border, not 
this Committee, reported a bill, a bipartisan bill, it was 
authored by Chairman McCaul, and it actually passed by voice 
vote. I mean, it was a unanimous vote of a Committee I served 
on for 10 years. Believe me, there were some knock-down, drag-
out fights in that Committee, but they were able to agree on 
that, which I think is quite a credit to them.
    So I think that we are moving in a direction to do all of 
the aspects that we need to do: securing the border, enforcing 
in the interior, remedying the system. You know, I read the 
Senate bill twice. It's one of the values of living in 
California and having a 6-hour flight every few days, put it on 
my little iPad and read it. I am not saying that this is 
necessarily everything, you know. But compared to our current 
situation, it's an honest effort to move forward. And we need 
to work together, I think, on this side of the building, in the 
House, to try and do a similar effort. And I thank you very 
much for your testimony.
    I yield back, Mr. Chairman.
    Mr. Smith. Thank you, Ms. Lofgren.
    The gentleman from Nevada, Mr. Amodei, is recognized for 
his questions.
    Mr. Amodei. Thank you, Mr. Chairman.
    You know, in studying this I have spoken with folks from 
around the country and stuff like that, and I'd like you to 
respond to a theme that I keep hearing. We talk about reform, 
and I don't think anybody is opposed to it. I mean, you call it 
a broken system or whatever. So we'll skip all that.
    Talking about border security, and the statement is this. 
It doesn't matter what your interior policies are if you don't 
have effective operational control over who crosses your 
border. So when you talk about the order of things in terms of 
securing the border, not sealing but whatever securing the 
border means, I'd like you to respond to, what difference does 
it make what your interior policies are if you have no control 
over people coming into your country?
    Ms. Wood?
    Ms. Wood. Well, because, you know, approximately 40 percent 
of the people who are now in the country illegally came in 
legally, it's important to have interior enforcement and a 
good, robust exit system. If we have the best control of our 
physical border but we're not paying attention to the third 
border, those who come in on visas and overstay, we're going to 
continue to have a significant problem, a potential significant 
underclass of unauthorized workers.
    Mr. Amodei. Okay.
    Mr. Crane?
    Mr. Crane. Sir, I think, you know, Congresswoman Lofgren 
brought up the story about the help wanted sign down at the 
border, and I think we have to take that sign down, and I think 
the way that we do that is we start with interior enforcement, 
that we, you know, put laws in effect that, you know, employers 
say, hey, you know what, there may not be that many ICE agents 
out there but it's just not worth it to me to take the chance, 
I'm not going to gamble with this, you know. And we start 
shutting down and taking down that help wanted sign, and I 
think it's a critical part to border security.
    Mr. Amodei. Okay.
    Mr. Aguilar?
    Mr. Aguilar. Sir, that help wanted sign, that draw of 
labor, our economy is on the upswing right now as we speak, 
thankfully. That is going to create a bigger help wanted sign. 
The resources that we have on the border right now can do so 
much. If the draw continues to grow, there will come a point 
where even these resources could be overwhelmed.
    Now, overwhelmed on the land border, I feel confident in 
saying the following: We are pretty strong there, we are very 
strong there, but we're going to see them coming across the 
littorals where we are not strong, we haven't gotten there yet.
    Mr. Amodei. Okay.
    Mr. Aguilar. So that draw, that help sign has to go away. 
That help for illegal labor has to go away.
    Mr. Amodei. Ms. Wood, ATD system, once you're inside, 
presently is that working, in your experience?
    Ms. Wood. The alternative to detention system?
    Mr. Amodei. Yeah. In terms of tracking people that are----
    Ms. Wood. In terms of tracking people, yes. It tracks 
people through the system. It makes sure that they show up for 
their court appearances. And at the end of the day it works 
with them to get travel documents and help them go home.
    Not everybody is appropriate for it. You know, there are 
some individuals who are better suited for detention or in fact 
release on recognizance. But again, it is a system, for its 
population, I think it's working pretty well.
    Mr. Amodei. Do you think in going forward, in trying to 
craft a new policy, there ought to be a role for that?
    Ms. Wood. I'm sorry, I couldn't quite hear you.
    Mr. Amodei. Do you think in going forward and crafting a 
new interior policy, that there ought to be a role for that to 
continue in any new legislation?
    Ms. Wood. You know, absolutely I think should be a role for 
alternatives. S. 744 talks about alternatives to detention. I 
think it's very important that there be an ability for all 
entities to compete for contracts for that. But, yes, there 
certainly should be a role for alternative to detention, as 
well as all the other tools ICE has. You know, one thing that 
ICE could do and hasn't done is look at reforming the bond 
system or reforming other sorts of systems. You know, a lot has 
changed since 1986, how can we use new technology to make sure 
people show up, and if they're ordered remove, that they go 
home.
    Mr. Amodei. Okay. Thank you.
    Mr. Chairman, I'd like to yield the remainder of my time to 
the gentleman from Idaho, Mr. Labrador.
    Mr. Labrador. Thank you, Mr. Chairman.
    I just want to thank first Ms. Lofgren for acknowledging 
that we actually have to learn some lessons from 1986. I've 
been a little bit dumbfounded hearing some of the people on the 
other side saying that we shouldn't take an overly critically 
examination of the 1986 law. I think that's the only thing we 
should be doing here, is taking a critical examination of the 
1986 law, because if we repeat the mistakes of 1986, we are 
going to have 11 million to 20 million illegal people in the 
United States in the next 20 years.
    Now, Ms. Wood, can you explain a little bit? I am a little 
bit--I am not understanding what the Senate did with E-Verify. 
It seems like we have been trying to fix E-Verify, make it 
applicable to all employers, and now my understanding is that 
the Senate bill actually changes E-Verify completely and it 
starts a whole new program.
    Ms. Wood. The Senate bill says that it changes E-Verify and 
it's starting to develop a whole new system. And, in fact, it 
has a provision that even says it repeals E-Verify in the 
current system. If you talk to folks up there and you talk to 
the drafters, they say that's actually a drafting issue. We 
really aren't going to toss all that out. We're going to 
actually encourage USCIS and the government to use E-Verify.
    Now, if you ask them, does the bill require you to use the 
existing system or could any Administration decide we don't 
like that, we're going to create something new, they say, well, 
they could do that. So I think that the language in S. 744 is 
modeled on the current system by having individuals attest, 
similar to section 1 of the I-9, employers attest, similar to 
section 2 of the I-9, although it includes some documents that 
are not currently permitted and are problematic, and that 
includes an employment verification requirement.
    Ways that it differs from the current system or what's 
proposed in House bill 1772 is there's a very long lead-in time 
to use the system. It's, you know, from 5 to 7 years. That 
definitely can create an unclear class of workers, people that 
can be taken advantage of, and you're going to have a lot of 
problems with fraud in that workforce.
    It also really beefs up the special counsel provisions in 
terms of reducing the ability of employers to take any other 
steps to prevent problems. So right now there are some 
employers, like some in the meat packing industry and other 
industries, that go through E-Verify but still have a big 
problem with identity theft because E-Verify doesn't solve 
that. So they use other tools, either manual tools or automated 
tools to address it. There is some concern that language in the 
Senate bill that expands the Office of Special Counsel will 
reduce their ability to do that, and that's critical for them.
    Mr. Smith. The gentleman's time has expired. Thank you, Mr. 
Amodei. Thank you, Mr. Labrador.
    And we will go now to the gentlewoman from Texas, Ms. 
Jackson Lee.
    Ms. Jackson Lee. Thank you very much, the Chair and Ranking 
Member of this Committee, for holding an important hearing.
    And, Mr. Aguilar, it is good to see you again. Thank you so 
very much for your service. I think we've worked some long 
years together and thank you for your service.
    Let me just at least put on the record my statement of the 
existence of a bipartisan border security bill, H.R. 1417.
    [The prepared statement of Ms. Jackson Lee follows:]
       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
    Subcommittee on Courts, Intellectual Property, and the Internet
    Thank you, Chairman McCaul, Ranking Member Thompson, and Chairwoman 
Miller and distinguished Members of the Committee:
    I am pleased that the Committee on Homeland Security is meeting 
today to mark up H.R. 1417, the ``Border Security Results Act of 
2013,'' which is an example on what can be achieved when Members of 
Congress reach across the aisle to find common ground and commonsense 
solutions to America's border security challenges.
    I believe in the years to come we will look back on today's action 
as a pivotal moment in the ultimately successful effort to secure 
America's borders in a manner consistent with our national values.
    I am proud to have introduced this bill with my colleague from 
Texas, Chairman McCaul, Ranking Member Thompson and the Chair of the 
Border and Maritime Security Subcommittee, Mrs. Miller.
    I also want to acknowledge the outstanding work and bipartisan 
cooperation of our dedicated staff: Alison Northrop, Shashrina Thomas, 
Paul Anstine and Steven Giaier. Thank you!
    As Ranking Member of the Border and Maritime Subcommittee, ensuring 
that we have the resources, the technology, the personnel--and sound 
plans and policies--to secure our nation's borders has been one of my 
major legislative priorities.
    That is why I am so please to have worked with all my in a 
bipartisan manner to craft the measure before us today which enable DHS 
to develop and implement a sound border security strategy and the 
metrics to measure its effectiveness.
    I am particularly pleased that the measure approved at the 
subcommittee markup incorporated in the base text several of my 
proposals and that the ANS before us reflects three amendments I 
offered during the subcommittee markup, including:

        1.  An amendment providing that the border security strategy 
        required under the bill include input from State, local, and 
        tribal law enforcement as well as border community 
        stakeholders, including ranchers and local chambers of 
        commerce;

        2.  An amendment requiring DHS to collaborate with a DHS 
        National Lab and DHS Centers of Excellence in the development 
        of the metrics required under the bill; and

        3.  An amendment requiring that border security strategy 
        efforts to increase ``situational awareness'' not infringe or 
        abridge privacy, civil liberties, and civil rights protections.

    I also appreciate that the ANS incorporates my suggestion that DHS 
be required to develop the capability to ``forecast'' trends in border 
traffic and movements, which is a more reasonable and attainable 
standard than requiring it to predict those movements with certainty.
    I also look forward to discussing the amendments I will offer later 
during this markup, including one that I am so proud to have worked on 
so closely with Mrs. Miller, my subcommittee chair.
    Mr. Chairman, the reasons we have put in so much effort in making 
this legislation the best it can be is because we understand that 
Americans are entitled to expect that their country has secure and safe 
borders and that it has operational control over who enters and what 
they bring with them.
    The action the Committee will take today in favorably reporting 
this bill will lay the foundation for our colleagues in the Senate as 
it helps to complete the essential task of providing the guidance 
needed for federal law enforcement officials to achieve their mission 
and improve their ability to collaborate with state, local, and tribal 
law enforcement.
    The resources made available through this legislation will build 
upon our successful efforts to protect communities along the Southwest 
border and across the country.
    As I have said many times, those of us who believe that America is 
the greatest nation on earth because of its cultural diversity have a 
special obligation to ensure the security of our borders so we can 
ensure the safety of the persons we welcome to our shores.
    As the tragic events occurring in Boston last month remind us, not 
everyone who seeks entry into the United States is coming to realize 
the American Dream. Some come to destroy it and are willing to hurt and 
kill innocent people to do it.
    If we wish America to remain the welcoming place it has been for 
more than two centuries, it is important that we have in place a 
strategy that will enable us to maintain situational awareness and 
operational control of our borders.
    The bill we markup today is a step in the right direction. So is 
the bipartisan and cooperative manner that all members of this 
committee have worked together to produce this constructive 
legislation, led particularly by Chairman McCaul, Ranking Member 
Thompson, and Border Security Subcommittee Chair Miller.
    So Mr. Chairman, Mr. Thompson and Mrs. Miller, I thank you for your 
leadership and your commitment to protecting our communities and 
keeping our nation safe.
    Thank you. I yield back my time.
                               __________

    Ms. Jackson Lee. And it has a number of answers. And I 
think my friend in the Chair is aware of it, that I think is 
important for me to make a comment on, and that is that it 
has--this is on the House side--it has an extensive component, 
Mr. Aguilar, on operational control. I think that terminology 
has grown out of a lot of the work that you all have done. And 
it has moved to having that operational control in place in 5 
years and that there will be annual reports, and on the 
southern border it's a 90 percent operational control.
    Putting aside S. 744, and I know they have a border 
security component, Mr. Aguilar, does that not give you, give 
us a better framework? This is a bipartisan bill passed out of 
the Homeland Security Committee getting ready to go to the 
floor? When you have reports to Congress, when you have 
measures on operational control and you seek to reach a 90 
percent operational control, obviously there are resources to 
be added, but you have something to be guided by, is that a 
better construct than what we've had in the past?
    Mr. Aguilar. Working in that direction is certainly a 
better construct than what we've had in the past. The only 
caution that I would give is, frankly, I was the one who began 
the term operational control and defined it. When defined, it 
was defined as a very tactical term for immediate juridical 
line border operations. Unfortunately, it was grabbed to 
describe a more strategic definition. That will not work.
    Now, keeping the term but broadening the scope of the 
definition will work as a benchmark and as a metric, but we 
need to change the definition.
    Ms. Jackson Lee. It will give you comfort to suggest that 
is the case. We talk about strategy.
    Mr. Aguilar. Uh-huh.
    Ms. Jackson Lee. And so the strategy comes first before the 
operational control. So I think your question has been asked 
and answered in the structure we have put in place. I think one 
of the good parts about the legislation is that it is a moving 
document and it responds to what is happening at the border, 
but it doesn't let the border go without attention in terms of 
Congress actively involved with homeland security.
    So, let me go back to E-Verify, which seems to be a popular 
issue. And, Ms. Wood, on the Senate bill, even though you said 
it has a question whether E-Verify is in place, one, this is a 
two-body process and we get the chance to look constructively 
at--we just heard Mr. Gutierrez said he's fine with E-Verify--
we want to make it right. But one of the things I think is 
important, doesn't the Senate bill make the documents going to 
be utilized by individuals far more secure documents?
    Ms. Wood. The Senate bill does talk some about the security 
of documents, yes, that's correct.
    Ms. Jackson Lee. And so that is at least an advance as to 
what people were actually showing employers, it's going to be 
now more secure documents.
    Ms. Wood. If there are those documents, then, yes, that is 
correct.
    Ms. Jackson Lee. On the IRCA, why we were concerned with 
that, I just want to put on the record, and you might say 
``yes'' or ``no,'' one of the problems is that you have to be 
continuously out of status. They only had a small number of 
special agricultural visas, they had something dealing with 
Cuban and Haitian visas, and then they had very limited in 
terms of when you came to the country. It was some time around 
1972.
    The S. 744 does a little bit more on who can get status. 
You may have been in status, you may have had a student visa 
and you are out of status. S. 744 covers that. Is that not 
correct?
    Ms. Wood. That's right. It's very broad in terms of who 
would be eligible, assuming you're in the U.S.
    Ms. Jackson Lee. But what it means is that you will have 
more people that have the opportunity to be static and 
identified. Is that not correct?
    Ms. Wood. That's right. There's no question there would be 
more people who have opportunity, yes.
    Ms. Jackson Lee. And so that means that we have a better 
chance of being able to know who's in this country and who's 
not in the country?
    Ms. Wood. As long as we have a secure, you know, interview 
process. I would suggest one that includes a personal interview 
with the right kind of background checks and then we make sure 
there's no fraud in the file, yes.
    Ms. Jackson Lee. Mr. Aguilar, with respect to the whole 
concept of comprehensive immigration reform, which I think the 
Senate has made great strides, and also the difference with 
IRCA was that we spend more time on S. 744 in dealing with 
legal immigration. Would you speak to that, but would you also 
speak to the point of the issue of family visas and family 
reunification and whether or not we can see an improvement on 
what the Senate has done.
    First, if you could speak to the fact of how IRCA contrasts 
with where we are today. We have a much broader plan, I 
believe, on the S. 744.
    Mr. Aguilar. It is broader in several areas, but as it 
relates to border security 744 addresses the market--what I 
believe to be the market-driven labor requirements for visa 
purposes. It then also allows for accompanying aliens to come 
into the country once visas are granted, so that will stop the 
family members that weren't allowed to come into the country 
before to not have to cross that border illegally, which in the 
end is going to reduce the negative impact on the Border Patrol 
dealing with, in the case of last year, 356,000 illegal 
entrants, magnifies our capacity----
    Ms. Jackson Lee. Many of them families trying to reunite?
    Mr. Aguilar. I'm sorry?
    Ms. Jackson Lee. Many of them families trying to get 
united?
    Mr. Aguilar. Some of them were, some of them were. Some of 
them were first-time entrants. It's a whole array.
    Mr. Smith. The is gentlewoman's time has expired.
    The gentleman from Idaho, Mr. Labrador, is recognized for 
his questions.
    Mr. Labrador. Thank you.
    Ms. Wood, let's continue our conversation about E-Verify. 
I've been told by several people that it's going to take 3 to 5 
years to fully implement E-Verify for all employers. Do you 
agree with that?
    Ms. Wood. Certainly that's what's in S. 744. At least 5 
years, plus the time for USCIS to do the implementing 
regulations.
    Mr. Labrador. But do you think that's--do we need 5 to 7 
years to fully implement E-Verify?
    Ms. Wood. I think we need to do it sooner or find some way 
to address the pending workforce that's not going to be covered 
by that system, that's not going to have the more secure 
documents, that's not going to be kind of eligible for any sort 
of adjustment.
    Mr. Labrador. And, do you think that's possible, for us to 
do it sooner?
    Ms. Wood. I do think it's possible for us to do it sooner. 
It's going to be a lot of work, but this whole thing is going 
to be a lot of work, and I think USCIS certainly could work 
with the system they have to move forward in that direction.
    Mr. Labrador. A quick follow-up question on what you were 
discussing with Ms. Jackson Lee. Some of the identification 
that's required for people that are in this program, it says 
that an affidavit by any individual over the age of 21 can be 
used to identify a person under the age of 18. Is that correct?
    Ms. Wood. That's my understanding, and yeah, that's 
obviously highly problematic. You know, there are always issues 
with the under-18 individuals if they're trying to use their 
nursery school application kind of in the past and things. So I 
think reducing the number of eligible documents, you know, 
would be a way of reducing fraud.
    Mr. Labrador. So you think an affidavit that addresses the 
fraud issue----
    Ms. Wood. No, I do not. I think that permitting that is ill 
advised.
    Mr. Labrador. Mr. Crane, I know you've spoken about the 
need for biometric-based ID to track visa holders and there's a 
CRS report that indicates that such a system would require 
really heavy infrastructure cost and reduced trade. And I am a 
fiscal conservative first. I came here to reduce the cost of 
government. So I am sensitive to these concerns. However, I am 
not entirely convinced that such a system would cost as much as 
the government bureaucrats claim that it's going to cost. Can 
you address that issue?
    Mr. Crane. Well, only, sir, to the extent that that's my 
exact feeling for it, that in our offices and out in our 
processing areas, we are able to put those little boxes out 
there. We don't have to tear walls down or do anything 
extensive. They just sit on a preexisting desk. I can't for the 
life of me see how this thing is projected to cost $8 billion.
    Mr. Labrador. So can you explain that a little bit? How is 
it that you do it in your office? You have a little box and 
what happens?
    Mr. Crane. Well, yeah, I mean, we have some different 
equipment now, but in the past we had a little box that sat 
there and the alien put their one finger on that little box and 
then they put the other one on there and we captured both index 
fingers. And it's extremely effective, extremely effective. 
Even just one index finger, it's extremely effective.
    Mr. Labrador. Okay.
    Ms. Wood, I saw you nodding your head. Do you agree with 
what he's saying.
    Ms. Wood. I do think that we've had some amazing advances 
in technology and we should not kind of shrink from the past. 
We should push and push the government to see how can we get an 
effective biometric exit and do it in a cost-effective manner.
    Mr. Labrador. What do you think, Mr. Crane, about the 
amendment that was just made to the Senate bill, that they 
actually started a pilot project for biometric exit, entry/exit 
data? Is that helping you feel more comfortable with it or do 
you think----
    Mr. Crane. I'm sorry, I wasn't aware that they had an 
amendment.
    Mr. Labrador. I believe there is amendment. Or what if we 
just started a pilot program. Let's not worry about what they 
did over there. But if we just did a pilot program with certain 
exit areas, you know, the most trafficked exit areas, would 
that make you feel more comfortable?
    Mr. Crane. Well, my experience at ICE with pilot programs 
doesn't give me a real warm fuzzy about it continuing after 
this kicks off. So, I mean, I guess if we had the pilot program 
ongoing right now and, you know, we could see that it was 
effective and that we could see some kind of implementation 
beginning, then yes, but the fact that they tell us that 
they're going to start a pilot program, not really.
    Mr. Labrador. Okay.
    Mr. Aguilar, you said in your testimony that you believed 
that a workable legal flow of legal immigration is one of the 
main components of fixing the illegal immigration----
    Mr. Aguilar. Yes.
    Mr. Labrador [continuing]. Problem that we have in the 
United States. Are you familiar with the Senate proposal on 
nonfarm or non-ag legal immigration and that it starts out at 
20,000 visas per year?
    Mr. Aguilar. That is the W visa. That is the low-skilled 
visa, yes, sir, 20,000, 35-, 55-, and 75-----
    Mr. Labrador. Do you think that that's sufficient to 
address----
    Mr. Aguilar. That is one of the critiques that I've got, 
sir, because it would be way above that. In my experience, I 
think it'll be way above that.
    Mr. Labrador. We would have a need that's way above that, 
don't you think?
    Mr. Aguilar. Yes. That's the reason for the commission, or 
the commissioner under CIS to make that determination along 
with the Secretary of Labor.
    Mr. Labrador. Okay.
    Ms. Wood, would you agree with that? It seems to me that's 
such a low number that we're just going to have the same 
problem again, that we're going to create a black market where 
people are going to come and work illegally because there is 
just not enough visas available for people to come legally.
    Ms. Wood. I think there's a big potential problem with 
that.
    Mr. Labrador. Thank you.
    Are you familiar with that issue, Mr. Crane?
    Mr. Crane. Not in detail.
    Mr. Labrador. Thank you very much.
    Mr. Smith. Thank you, Mr. Labrador.
    The gentleman from Puerto Rico, Mr. Pierluisi, is 
recognized.
    Mr. Pierluisi. Thank you, Mr. Chairman.
    As a former attorney general of Puerto Rico, I'm pleased to 
submit two records. So I ask unanimous consent to submit two 
letters for the record of this Committee. The first letter is 
signed by 36 current State attorneys general, and it expresses 
support for immigration reform that, I quote, ``improves our 
immigration system, keeps our communities safe, and protects 
our borders.'' Such reform should, I quote again, ``provide a 
sensible means to deal with the immigrants who are currently in 
the country without legal status but are of good character, pay 
taxes, and are committed to continuing to contribute to our 
society.''
    The next letter is signed by 76 former State attorneys 
general and it expresses support for comprehensive immigration 
reform. The letter highlights the ways in which comprehensive 
reform will ``significantly improve public safety.''
    Mr. Smith. Okay. Without objection those letters will be 
made a part of the record.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
    Mr. Pierluisi. Thank you, Mr. Chairman.
    I want to begin by expressing my strong support for the 
passage of comprehensive immigration reform legislation during 
this session of Congress. We need to fix our broken immigration 
system so that it works for all Americans, helps our economy, 
and advances our national interest. I believe S. 744 provides a 
solid framework for this purpose, and I'm confident that the 
efforts of my colleagues in the House will also yield results.
    Having said this, I must express my concern that Puerto 
Rico is currently excluded in the definition of ``southern 
border'' in S. 744, and therefore in the bill's strong border 
security provisions. As many of you are aware, in recent years, 
while the security situation on the U.S. border with Mexico has 
improved by most, if not all statistics, Puerto Rico has 
experienced a dramatic increase in the level of drug-related 
violence on the island that is directly tied to the territory's 
use as a transshipment point for illegal drugs destined for 
Stateside markets.
    The recent surge in violence, which has been acknowledged 
by a multitude of top-ranking Federal law enforcement 
officials, including Mr. Aguilar, has pushed the island's 
already historically high murder rate to approximately six 
times above the national average. The cause of the drug-related 
violence is directly associated with the transit of illegal 
narcotics into the territory through its undersecured and 
underresourced maritime borders.
    While there are indications that Federal law enforcement, 
mostly DHS and its component agencies, has worked to increase 
the operations in Puerto Rico in recent months, the underlying 
security dynamics remain the same for the 3.7 million American 
citizens residing in the territory.
    Last year, the CJS bill recognized that efforts by the 
Federal law enforcement community to reduce drug trafficking 
and associated violence in the southwest border region have 
affected trafficking routes and crime rates in the Caribbean.
    Stated simply, if we try to plug the U.S. border with 
Mexico without increasing security in America's Caribbean 
border, we're just going to displace the criminal activity from 
one U.S. border to another. Therefore, I believe the U.S. 
territories in the Caribbean, specifically, Puerto Rico and the 
U.S. Virgin Islands, must be included in any border security 
package that is considered by Congress.
    Do you agree with me, Mr. Aguilar?
    Mr. Aguilar. Yes, sir. Absolutely. One of the things that 
we must recognize is that the criminal organizations, we have 
actually termed their actions displacement and entrenchment, 
deflection actions, based on our successes. That is why it's so 
critical that we take a look at the entirety of our enforcement 
challenge that we have.
    By reducing the flow of illegal aliens coming into this 
country, the 356,000 last year, it gives CBP and DHS greater 
capability to shift resources where those deflections or those 
displacements are taking place. In addition to the money that 
is being appropriated as a part of the user fee, these are the 
things that will come into play and make the entirety of our 
southwest border and the littorals safer and more secure.
    Mr. Pierluisi. Does anybody disagree on the panel? Ms. Wood 
or Mr. Crane, do you disagree with my proposition, which is to 
include the Caribbean border in the southern border provisions 
in this bill?
    Ms. Wood. I mean, certainly I think that we should focus on 
the entire country and we should certainly not exclude Puerto 
Rico or any other area when we're thinking about how do we 
prevent illegal migration and how do we prevent transnational 
organized crime.
    Mr. Crane. Did you want me on comment, sir?
    Mr. Pierluisi. Yes.
    Mr. Crane. No, sir, I do not disagree with you at all.
    Mr. Pierluisi. Thank you. I yield back.
    Mr. Gowdy. [Presiding.] I thank the gentleman from Puerto 
Rico.
    The Chair would now recognize the gentleman from Iowa, Mr. 
King.
    Mr. King. Thank you, Mr. Chairman.
    And I thank the witnesses for your testimony here today. 
And I've had the privilege of hearing from each of you on other 
occasions as well. So I respect the level of expertise that you 
bring to this panel.
    I think there are a lot of things being discussed here 
today that really aren't relevant to the big picture. And if 
you start out with a flawed premise, the smartest people are 
going to end up with the wrong conclusion. So I want to first 
concede this point: That except for certain felons or those 
mysterious combinations of three misdemeanors, those are the 
exceptions in the bill for those that are unlawfully present in 
the United States. And the bill essentially automatically says 
all of you that are here now, with those exceptions and those 
who came before December 31st of 2011, are hereby legal, as I 
read the bill.
    And then it also says that if you were deported in the past 
and you're not guilty of a felony or these three mysterious 
misdemeanors, then it's an invitation to come back, apply to 
come back to the United States after the bill might be passed. 
And as far as I can see there's no prospect that people that 
haven't committed felonies or people that haven't committed 
these three serious mysterious misdemeanors, there's no 
prospect that those that came here after December 31st, 2011, 
or might come here in the future would be either deported.
    And so I call this the Always Is, Always Was, and Always 
Will Be Amnesty Act, in that if you is in America illegally, 
you get amnesty and you get to stay; if you was in America and 
were deported, you get to come back; and if you will be in 
America, there is no prospect you will be deported, and you get 
to stay. The Always Is, Always Was and Always Will Be Amnesty 
Act, this is the largest and most expansive amnesty act that 
ever got any traction in the history of the United States of 
America. And for me it's breathtaking to see how a Nation could 
go through a law enforcement whiplash like we have seen since 
November 6.
    And so I was very surprised, after paying great attention 
to the presidential race, probably longer and harder than 
anybody else in this room, that somehow some guru woke up on 
the morning of November 7th and concluded that Mitt Romney 
would be President-elect on that day if he just hadn't uttered 
a couple of words, ``self-deport.'' That was astonishing to me, 
and even more astonishing was the logical disconnect of many of 
the people within my own party who seemed to leap to this 
conclusion that that was the right assumption.
    And so I dialed this back in my memory, and, yes, I do 
remember 1986. And we know that that number started out less 
than a million. And the lowest number that I can see out there 
of those that actually were legalized in that amnesty act were 
about 2.7 million or 2.8 million; many of those numbers go 3 
million or 3.5 million. We also see numbers that show that the 
family reunification that resulted from that was something in 
the order of at least 5 to 1. So 5 times 3 is 15. That would 
mean there are something like 15 million people in this 
country, not discounting deaths and those that might have gone 
back, that were the beneficiaries of the 1986 amnesty act.
    So I'd just pose this question: Does anybody think that 
Barack Obama would be president today if the 1986 amnesty act 
had not become law? And I'd turn first to Mr. Aguilar because 
he had the most confused look on his face.
    Mr. Aguilar. Yes, sir. Frankly, I have to tell you, I'm not 
quite sure I understand the question.
    Mr. King. Okay. Thanks. Because the clock is ticking, and 
so I'll just make this point. Because it's more than 
rhetorical. I will tell you that I don't believe Barack Obama 
would be president today if Ronald Reagan hadn't made the most 
colossal mistake of his career in signing the 1986 amnesty act. 
He let me down that day.
    And now I have people that are concluding that if we can 
just pass an amnesty bill today and send to it a Democrat 
President's desk, who lectured us in February, said, I'm trying 
to help you, Republicans, you'll never win another national 
election if you don't pass some kind of comprehensive 
immigration reform--which we do concede, I think, is a 
euphemism for amnesty--and yet the beneficiary of that's Barack 
Obama. Now, why would we think we would get less of the same if 
we did more of what we did in 1986?
    And I'd point out also, when I hear the discussion about we 
have to do this because of the labor force that's out there and 
we need to have more than 50,000 workers in this category or 
that because we think the market demands that, Milton Friedman 
said you cannot coexist with an open-borders policy and a 
cradle-to-grave welfare state. And we are a cradle-to-grave 
welfare state. It is a wealth transfer. This is a class 
leveller. This is the kind of thing that's driven by a 
socialist agenda to take from the people that have and give to 
the people that have not and transfer this wealth.
    A hundred million Americans in this country are not in the 
workforce. A hundred million. And we're talking about bringing 
in a number that they're not going to limit this to 11.3 
million or any other number like that. The amendment was 
offered in the Senate at 33 million and rejected. So we know 
this is bigger than 11 million people.
    This is a transformative economic, rule of law, and 
cultural change. It destroys the rule of law with regard to 
immigration. You can never again restore immigration law 
enforcement if you pass anything that looks like this amnesty 
act. I think it transforms America forever. And I think that 
people that are advocating for this have just simply started 
with completely the wrong premise, it's not supported by any 
kind of data that's out there and they're not willing to debate 
that. They want to talk around the edges. I think we need to 
get to the core of this problem and define how America became 
great and how we restore the pillars of American 
exceptionalism.
    Thank you, and I yield back.
    Mr. Goodlatte [presiding]. Time of the gentleman has 
expired.
    And the Chair recognizes the gentleman from Florida, Mr. 
Deutch, for 5 minutes.
    Mr. Deutch. Thank you, Mr. Chairman.
    I would start simply by making the observation that the 
reason that America became great, the reason that America's 
economy has thrived in every generation, the reason that we 
find ourselves in a country that continues to be the envy the 
world is because of our immigration policy. That is a point 
that I think is irrefutable. I'm not sure what country we wish 
to go back to that I hear my colleague talking about, but I 
think as we approach this whole issue there are a myriad of 
reasons for immigration reform--economic reasons, humanitarian 
reasons, we can go down the list--but it is eminently clear 
that we are a country of immigrants. And those who speak out so 
forcefully and passionately against any sort of effort to deal 
with the immigration situation that we have ignore the very 
fact that we are a country that is a Nation of immigrants.
    I'd like to get back to something you spoke about earlier, 
Ms. Wood, and that is you talked about both--in your testimony 
you talked about alternative forms of detention. I have in my 
district something called the Broward Transitional Center, 
which is a detention facility, it's in Pompano Beach, Florida, 
houses nonviolent detainees, which include asylum seekers. Most 
people housed at the facility have committed no crime or only 
minor nonviolent infractions. They are not violent criminals. 
And I just wanted to ask you some questions about that.
    According to the Department of Homeland Security, in 2011 
the United States detained an all-time high of 429,247 
individuals in our immigration system in the detention system. 
We spend $2 billion a year on immigration detention, $164 per 
detainee per day. Alternative forms of detention can cost, as I 
think you touched on earlier, anywhere between 30 cents and $14 
a day. In fact, at the Broward Transitional Center, which is 
used to detain 700 people who pose, for the most part, no 
threat to our national security, and for the most part no 
threat to the community--these are people, by the way, I would 
point out, who often are picked up from buses or as a result of 
traffic violations.
    I'd just ask whether the whole approach to mass detention 
of people who are here, who have come here illegally, whether 
that mass detention secures our borders. Does that make us more 
secure when we do that?
    Ms. Wood. Certainly, you know, the purpose of detention is 
to ensure that people who are ordered removed will go home. 
And, unfortunately, over time people that were not in 
detention, they were ordered removed, they wouldn't go home. 
You know, the OIG said in the last study done on this that only 
13 percent of individuals who are not detained, if they were 
ordered removed, would go home. And so massive ignoring of 
immigration court orders I think undermines our immigration 
system and I do think makes our borders less secure by people 
flowing in.
    But to your point, you know, I think it's important to look 
at who are we currently detaining and how are we doing that and 
are there ways we can do that more effectively. And some of the 
individuals, for example, that might be subject mandatory 
detention, you know, arriving aliens or others, may not need to 
be subject to mandatory detention. So having the ability to do 
an individualized assessment and think about, is this person a 
public safety threat or do they pose a significant flight risk, 
I think makes a lot of sense. And then the government can think 
more appropriately, what's our goal? Our goal is to make sure 
they comply with removal orders.
    Mr. Deutch. Are you familiar with and can you speak to the 
bed quota requiring the detention of 34,000 people per day? Is 
that a good policy for securing our borders?
    Ms. Wood. I don't think that we should have a fixed number 
in terms of how many individuals need to be detained. We should 
focus on how can we be most effective.
    I will say that with the focus on Secure Communities, most 
of the people that ICE is arresting and removing are people 
that are coming out of Secure Communities as well as kind of 
arriving aliens. And so for many of those folks that are coming 
out of the jails, you know, there may be significant public 
safety concerns and it would make sense that there would be a 
need to detain them. For others there's not that need. So to 
have a fixed number, in some years you may need more. I think 
right now ICE is detaining 37,000 individuals or something to 
that nature. Other times you may need less. So to give the 
agency the flexibility to use its spending most effectively I 
think makes a lot of sense.
    Mr. Deutch. Why is there a requirement? Where does the 
34,000 come from?
    Ms. Wood. I think it comes from the Appropriations 
Committee. It was put in the report. They didn't have a lot of 
trust in ICE over the years that ICE would spend the money in 
the way that they thought appropriate. And so that requirement, 
before I even came to ICE, was put in there to prompt ICE to 
act in way that the Committee thought appropriate.
    Mr. Deutch. I appreciate it. Thank you, Mr. Chairman. I 
yield back.
    Mr. Goodlatte. I thank the gentleman.
    The gentleman from South Carolina, the Chairman of the 
Immigration and Border Security Subcommittee, is recognized for 
5 minutes, Mr. Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman. Mr. Chairman I want to 
start by apologizing to you and to our witnesses and our 
colleagues for being in another hearing this morning. Although 
I'm quite certain everyone is thankful that there's not more 
than one of me, I really wish I could have been here for the 
entire hearing and did not have to go to the IRS. So I want to 
apologize to our witnesses for being in another hearing.
    And, Mr. Chairman, I want to thank you for all of the time 
and effort that you have spent on this issue. For every 1 hour 
folks see you in this room there are 10 hours that you're 
working in another room where nobody sees you. So thank you for 
devoting as much of your time and energy to this issue as you 
have.
    And with that in mind, to our three witnesses, my 
constituents in South Carolina want a real remedy and not a 
political remedy. This debate can be divisive. And they want a 
remedy that will last a lifetime. So with that in mind, I'm 
going to bounce from issue to issue and then see if we can come 
up. But let me start with this.
    What in the Senate bill or what can exist in a House bill 
that ensures subsequent Administrations, whether they be 
Republican or Democrat, can't fail to enforce whatever we come 
up with in this Congress? What guarantee would you suggest we 
include so we don't have this debate 3 years from now, 6 years 
from now, for purely political expediency? What should we do to 
make sure this is the last time we have this potentially 
divisive debate as a Nation? Not all at once.
    Mr. Aguilar. I'll make the following statement. Each one of 
us has served. Chris is serving today. We execute the policies. 
The political machines basically develop those policies. I 
think that question better goes to this group as to what you 
can put in there so that those that are executing the laws 
execute the laws as designed. Ms. Wood, myself as Acting 
Commissioner, as Assistant Schedule, we have bosses, 
politicals. We have the Hill that we answer to. Policies are 
put in place. We execute those policies. We don't design them.
    Mr. Gowdy. No, I did not mean to suggest that you were 
the----
    Mr. Aguilar. No, I understand. That's why I answer in the 
way I do.
    Ms. Wood. I think the most effective tool for ICE 
historically has been the funding streams, and the things in 
the House Appropriations conference report that drive certain 
ICE requirements. And so to the extent that you can use 
appropriations or funding streams or cut things off, if that's 
not done, that seems to drive, at least in my experience, the 
agency more than anything--more than anything else.
    Mr. Crane. Yeah. I think, sir, that the biggest thing that 
we can do again is we can take the discretion away from the 
Secretary of DHS whenever possible, and, you know, codify what 
officers and agents have to do out in the field. I mean, DHS 
and ICE right now has the authority--you know, the law gives us 
the authority to make arrests, they can determine whether or 
not we even have those authorities or not.
    This bill is littered--you know, everything at the bottom 
seems to say at the discretion of the Secretary of DHS. Well, 
we have nothing as long as one individual or their boss, 
basically the President of the United States, can determine, 
you know, whether they're going to exercise that discretion or 
not. And I understand that there has to be a certain degree of 
discretion for agencies, but we have to work hard to take away 
as much of that as possible.
    Mr. Gowdy. I want to get to a question about mandatory 
detention, but your response provokes this question in me. What 
is the single best way, if you were king or queen for a day and 
you had to ensure border security as a trigger for anything 
else that may come subsequently, what is the single best way to 
convince our fellow citizens that the border is adequate--I 
don't mean hermetically sealed, I mean adequately secured such 
that it would trigger whatever else comes post-border security, 
fully recognizing there are two borders, not getting into 
internal securities. But to the extent that I'm asked about 
border security more than everything else combined in my 
district, what's the best way for us to make sure that we're 
doing the best job we can on that?
    Mr. Aguilar. At this point in time there are strategies, 
there are solutions, resource solutions already in place 
designed. This bill talks about the appropriations that will 
allow for those expansions. That's one.
    To continue the interior enforcement is critically 
important, to address that continuing draw, especially in 
today's economy. As the economy takes up, those hoses on the 
other side of the border, not just Mexico, but other countries, 
are going to open up because that help sign is going to be 
there.
    Mr. Gowdy. I'm out of time, Mr. Chairman. Thank you for 
your indulgence.
    Mr. Goodlatte. Thank the gentleman.
    The gentleman from Georgia, Mr. Johnson, is recognized for 
5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    When John Morton, Ms. Wood, when John Morton, the Director 
of Immigration and Customs Enforcement, appeared before 
Congress earlier this year, he noted that ICE tries to live 
within the budget that Congress provided. He also argued in his 
written testimony before this Committee that these budget 
constraints are now further compounded by the reductions 
required by sequestration, which represents a nearly $300 
million cut to our budget that we must absorb over the 
remaining 7 months of this fiscal year.
    You point out in your written testimony that one of the 
failures of previous immigration legislation was fully funding 
and supporting immigration agencies who have been woefully 
understaffed for the last several decades. Do you agree, ma'am, 
that sequestration was a step in the wrong direction on 
immigration enforcement?
    Ms. Wood. Sequestration didn't help any law enforcement 
agency.
    Mr. Johnson. It was a step in the wrong direction.
    Ms. Wood. It's certainly not helpful, absolutely.
    Mr. Johnson. And it hurts, actually.
    Ms. Wood. Yeah.
    Mr. Johnson. It hurts immigration enforcement. Would you be 
able to admit that?
    Ms. Wood. If you don't have the resources, absolutely. 
Sequestration reduces the resources that ICE has or that any 
other agency has. Absolutely, it hurts their ability to enforce 
the law.
    Mr. Johnson. How about you, Mr. Crane? Would you go so far 
as to admit that sequestration hurts the efforts of ICE?
    Mr. Crane. Well, again, sir, I mean, I think I would have 
to, you know, steal Mrs. Wood's comments on that in terms of I 
don't think there's been a great big impact to ICE at this 
point. But certainly if you take----
    Mr. Johnson. Well, that's not my question. Now, that's not 
my question.
    Mr. Crane. Okay.
    Mr. Johnson. My question is, can you admit that 
sequestration is not good for enforcement, for ICE enforcement? 
Can you admit that or do you deny? Do you admit it?
    Mr. Crane. I mean, yeah, if you take money away from the 
agency, yes, it's not going to be good, sir.
    Mr. Johnson. It's not a good thing. I find it interesting 
that you both would find it difficult to make that admission.
    What I'd like to know, Mr. Crane, is does your organization 
represent about, what, 7,000 of 20,000 ICE agents and 
professionals?
    Mr. Crane. Actually, they're ICE agents and staff, yes, 
sir.
    Mr. Johnson. So you represent 7,000 of the 20,000. So not 
even half of them.
    Mr. Crane. That's correct.
    Mr. Johnson. And you're speaking on behalf of the entire 
organization, though here today, is that correct?
    Mr. Crane. I don't believe so, sir.
    Mr. Johnson. Well, nothing in your statement indicates 
otherwise. In fact, your statement indicates that you are 
speaking on behalf of the organization.
    But let me ask you this question. Does your organization 
get dues that are checked off by the employees in their 
paychecks? In other words, does your organization benefit from 
the automatic dues check-offs?
    Mr. Crane. Okay. So the question is, are the dues taken out 
of the employees' checks?
    Mr. Johnson. Yes.
    Mr. Crane. Yes, sir.
    Mr. Johnson. Okay. And taken out of all the employees' 
checks.
    Mr. Crane. No, sir. No.
    Mr. Johnson. Just the 7,000.
    Mr. Crane. Membership is optional.
    Mr. Johnson. I see. Okay. Do you all receive funding from 
other sources, does your organization receive funding from 
other sources?
    Mr. Crane. Do other sources donate money to us?
    Mr. Johnson. Yes, other organizations.
    Mr. Crane. No, sir. I haven't received any donations. No, 
sir.
    Mr. Johnson. Corrections Corporation of America.
    Mr. Crane. I'm sorry?
    Mr. Johnson. Has Corrections Corporation of America 
contributed money to your organization?
    Mr. Crane. No, sir.
    Mr. Johnson. Not to you personally, but to your 
organization?
    Mr. Crane. Neither.
    Mr. Johnson. All right. What about the American Legislative 
Exchange Council?
    Mr. Crane. I'm not even familiar with what that is, sir. 
So, no.
    Mr. Johnson. Ms. Wood, do you know what that is? ALEC.
    Ms. Wood. I've heard of it, but I'm not able to speak to 
it, no.
    Mr. Johnson. All right. Well, now, ma'am, you mentioned in 
your testimony that--you argue that focusing on criminal 
immigrants leaves undocumented immigrants alone to ``plan, take 
steps, cause harm.'' This is charged rhetoric that implies a 
whole lot of negative stuff. So I'd ask you to clarify that 
phrase. Is it your position that all undocumented immigrants 
are criminals who will plan, take steps, cause harm?
    Ms. Wood. No. It's certainly my position that a broad 
legalization program could make sense. What I think is that 
it's important for ICE to have now and in the future a layered 
enforcement where they focus on a wide variety of immigration 
violations, including immigration fugitives or those who have 
committed other laws, not just felonies.
    Mr. Johnson. Well, what did you mean by that comment, 
leaving undocumented immigrants alone to plan, take steps, 
cause harm?
    Mr. Goodlatte. We'll allow Ms. Wood to answer the question. 
The time for the gentleman has expired.
    Mr. Johnson. Thank you, Mr. Chairman.
    Ms. Wood. What I meant is that we need to focus and think 
about layered enforcement, including enforcement of visa 
overstays. If we only focus on those who have already been 
convicted of felonies then we would miss some who might come 
into this country, either legally or illegally, and then cause 
harm. So in my view we have to look at a range of immigration 
violations. But I'm certainly supportive, as I said in my 
testimony, of a program of bringing individuals out of the 
shadows, putting them through a proper procedure, and then 
having kind of enforcement on those who violate the law further 
on.
    Mr. Johnson. Thank you.
    Mr. Goodlatte. The time of the gentleman has expired.
    The Chair recognizes the gentleman from Texas, Mr. Gohmert, 
for 5 minutes.
    Mr. Gohmert. Thank you, Mr. Chairman. Appreciate the 
witnesses being here.
    Mr. Aguilar, in talking--I'm sure you still talk to folks 
that work to defend our borders. Have you been hearing from 
them what we've been reading and hearing anecdotally, that 
after talk of legalization for people in the United States, 
that there's been a dramatic uptick in people coming across the 
border illegally?
    Mr. Aguilar. Yes, sir. And we've experienced that in the 
past. That is just a part of every time that we talk about some 
kind of immigration reform, especially when there are still 
questions out there, there is some kind of increase. Can't give 
you what that increase is. I don't know.
    Mr. Gohmert. Well, you had mentioned earlier in answer to a 
previous question that you believe we need to continue the 
current enforcement. I'm curious, do you know how many border 
officers or how many officers, agents we have that are 
protecting our borders currently?
    Mr. Aguilar. Yes, sir: 21,370 is a baseline, 18,500 of 
those on the southwest border, 2,212 on the northern border.
    Mr. Gohmert. I figured you would know. Thank you.
    Because I was reading again recently about the time that we 
had absolute border security back when Woodrow Wilson was 
President, and Pancho Villa, depending on your perspective, was 
a hero or was an enemy. But he did have folks that crossed the 
border with him, killed American families, robbed some places 
in the U.S. And, of course, General Pershing never caught him. 
But, in the meantime, one article indicated there was many as 
158,000 National Guard troops that were sent to make sure that 
we didn't have people coming across that we did not agree on. 
And I thought about 158,000; others say there were tens of 
thousands. Don't say that many. But that was at a time when the 
United States had 100 million people in the country. Now well 
over 300 million. And it just seems that it's all about 
priority.
    And I appreciate so much my friend Mr. Johnson from Georgia 
bringing up the issue, and other friends have brought it up, 
about how bad the sequestration was. And I am so glad people 
are finally recognizing what I said after President Obama 
proposed it, what I said after our leadership got sucked into 
agreeing to it, that sequestration was a terrible way to 
govern. And I very much regret that entities as valuable as the 
Customs and Border Patrol got hit like they did, that our 
defense got hit like they did. I thought it was a terrible 
mistake. I tried to convince the Republican leadership they 
shouldn't have gone along with President Obama's proposal, but 
they didn't listen to me, so we got what we got.
    But there's also been discussion, too, about all of the 
money that is spent prosecuting people who have been deported 
and come back into the country, our country, illegally, making 
it a crime. I was blown away when Ms. Lofgren brought that up 
this year at a prior hearing. I had no idea we were spending 
that kind of money and man-hours--woman-hours and man-hours, 
for those who are genetically--or generically challenged--but I 
had no idea we were spending that much time going after people 
that were returning into the country. And it just seems that if 
we would secure our own border, we're talking hundreds of 
billions of dollars to spend on other things.
    So just keep coming back to this and I don't see how 
there's an escape from this. Until we secure the border this is 
going to be an ongoing problem. And a question was asked 
earlier about is there anything in the new legislation that 
will force this President to secure the border more securely 
than he has been in the past, and there's nothing there. And it 
just seems we're going to be back doing this again, talking 
about all those who have come into the country undocumented.
    I'm still back there. I really think, you know, and I note 
that our friends that came in and made the appearance when my 
friend Mr. Conyers recognized them are no longer around--but I 
really think that if we could secure the border so--not close 
it, but secure the border so people we want who had legal visas 
would come in, it seems like, I really believe, we could get an 
agreement on the folks that are here really quick. And that's 
what I want. But I just have not heard anything in this hearing 
that changes my impression that until we secure the border 
we're jumping the gun on working something out here.
    And I appreciate your time, Iappreciate your being here. 
And I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman.
    And recognize the gentlewoman from Washington, Ms. DelBene.
    Ms. DelBene. Thank you, Mr. Chair. Mr. Chair, first I'd 
like to ask for unanimous consent to submit a letter into the 
record, a letter from many national, local, and State 
organizations regarding their feedback on the lessons to be 
learned from the 1986 law.
    Mr. Goodlatte. Without objection, the letter will be made a 
part of the record.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Ms. DelBene. Thank you.
    And I just want to thank all of you for being here for many 
hours and giving your testimony.
    Mr. Aguilar, you talked in your written testimony about the 
successes of a secure border, how it has economic--the economic 
successes of a secure border. I'm from a northern border State, 
Washington, and when we talk about border security it's 
incredibly important to also realize the trade and economic 
activity that happens across our borders. And I wondered if you 
would comment on how you would put together comprehensive 
immigration reform policy in a way that would optimize and deal 
with the tension that might exist between having a secure 
border and also making sure we have trade and economic activity 
going across.
    Mr. Aguilar. Trade is an absolutely critical part of our 
national security. $2.3 trillion worth of trade last year that 
we've dealt with in CBP, Customs and Border Protection. $1.7 
trillion worth of exports out of the country. Some of the 
figures that have been thrown about that relate to immigration 
enforcement spending are inaccurate. That's the simplest way I 
could put it. Because when you fund a Border Patrol agent, you 
fund a CBPO officer, you fund an agricultural inspector, or ICE 
in the area of IPR, of trade, all this other kind of stuff, you 
are also funding our country's capability to deal with the 
trade that's so critically important to our country. So not 
losing sight of that is absolutely critical.
    Border security, 744 has the foundational principles. The 
problem we find ourselves in now as a country is the following: 
that we have reduced illegal immigration dramatically. In the 
last 40 years, the number--we haven't seen these numbers in 
over 40 years. The point of decision now is do we add funding 
for additional technology, agents, fences and things of that 
nature in order to continue securing that border to the degree 
that at some point is going to be defined? Or do we remove one 
of the flows, illegal flows that our agents and officers deal 
with every day by way of a properly instituted immigration 
reform bill.
    By doing that, now we provide our enforcement officers at 
all levels with, as I said before, with the greatest force 
multiplier that we have toward security, securing our Nation's 
borders.
    Illegal flow of people right now is the most workload-
intensive component of border enforcement. If we apprehend a 
ton of narcotics, we apprehend a ton of narcotics, we secure it 
and we hand it off to DEA. There is no securing, there is no 
jailing, there is no feeding, there is no medical expenses 
associated with a ton of narcotics.
    You apprehend one illegal alien, you have to feed, you have 
to secure, you have to transport, you have to process, you have 
to jail, you have to secure, you have to take before an 
immigration judge, a court, do all of those things. So that is 
my interest here specific to border security. By removing that 
illegal flow of people, you increase tremendously and 
dramatically the capability and the capacities of our border 
enforcement assets.
    Ms. DelBene. Thank you.
    Ms. Wood, in your testimony, you commend the Senate bill 
for requiring counsel for vulnerable populations, including 
children and the mentally ill. And I agree with that.
    There are organizations like Kids in Need of Defense who 
provide legal representation to unaccompanied children who 
enter the U.S. immigration system. And you talked earlier about 
reform that you think we might need in our immigration court 
system. And I wondered if you'd elaborate on what types of 
reforms you'd like to see there that you think would help us 
protect these vulnerable populations and be more efficient.
    Ms. Wood. Certainly. And I do think providing counsel for 
unaccompanied kids and those who have a serious mental 
disability is absolutely critical. ICE attorneys try to do the 
best they can to analyze these cases and see whether or not 
someone has a claim for relief. But they are not the advocate 
of those individuals. And so imagine coming to this country 
young, by yourself, and there's nobody there to advocate our 
behalf. And so I was very, very pleased to see this in the 
bill.
    And I think that actually studies show that aliens who have 
counsel move through the immigration court system more quickly, 
that they, when they understand whether or not they have a 
right to a judge, sometimes they may decide to voluntarily 
depart rather than drag something on for years. So I think it's 
really critical to think about those who are vulnerable.
    Other kinds of reforms that I think we could have include 
thinking about are there idiosyncrasies in our system. If I'm 
from a visa-waiver country and I come here and I overstay any 
visa, I'm treated one way. If I'm from a nonvisa-waiver country 
and I come here, I'm treated another way when I overstay my 
visa. There's no reason why there should be a difference. And, 
you know, so I think looking at where are the idiosyncrasies 
and how can we resolve them.
    And then I also think focusing on how can we smooth the 
immigration process, how can we make the courts move quickly. 
It shouldn't take 5 years to determine whether or not someone's 
in the country illegally. So we should see are there 
opportunities, frankly, more people to voluntarily depart, you 
know, enhanced stipulated removal, with protections, of course, 
and other sorts of things.
    Ms. DelBene. Thank you. My time's expired. Thank you, Mr. 
Chair.
    Mr. Goodlatte. Thank the gentlewoman.
    And the Chair recognizes the gentleman from Texas, Mr. Poe, 
for 5 minutes.
    Mr. Poe. Thank you, Mr. Chairman. I want to thank the Chair 
for--and the Chairman of Subcommittee, Mr. Gowdy, as well--for 
working through this immigration mess in a methodical way. We 
have to get it all fixed. There are numerous problems. There's 
not just one, there are a lot of problems. And as I look at the 
immigration system in this country, I think there's a problem 
in every aspect of it, from border security, for people--and 
people just want to cross over for the day to work.
    Mr. Aguilar, you said that you believe that the border is 
more secure now than it ever has been. Let me ask you this 
specific question: Do you believe that the border is secure, in 
your opinion, whatever that means, just yes or no, is it secure 
or not?
    Mr. Aguilar. No, sir. We've said it constantly before, 
there is yet more to do.
    Mr. Poe. And I couldn't agree with you more.
    Mr. Aguilar. Yes, sir.
    Mr. Poe. And I think it's getting worse. And I think the 
problem is the drug cartels have long since quit bringing drugs 
to the country to make money, they have now gotten involved in 
the scourge of human trafficking, bringing young children in 
this country to sell them for sexual favors throughout the 
Nation. Unfortunately, my hometown of Houston is the hub of 
trafficking in the United States because of its location.
    That's a recent phenomenon that's getting worse. And it's 
getting worse because of the border in some areas is worse. And 
now we hear the stories of, on the American side, we have 
American citizens and foreign nationals that are legally here 
having--being extorted for money, protection, racketeering 
money to protect their family members in Mexico. We had a 
couple at my church in Houston whose nephews were kidnapped by 
the Zeta drug cartels. Last year they were told to pay the 
ransom of several thousands of dollars and the nephews would be 
released. They paid the money, the Zetas murdered the nephews.
    That's happening in America. It's not happening south of 
the border. And to me, it's border security. We have to define 
what it is. That's what the Senate, I think, tried to do. I 
don't know if I agree that they did it. What we have to do in 
the House, because that depends on what we do after so-called 
border security. And I'm not sure I know the definition. I 
think border security is when I say it's secure. But I don't 
think get the only vote on that issue.
    What do you think about the idea of helping out our border 
protectors on the border, Federal, State, local, with taking 
some of the equipment from Iraq and Afghanistan that is 
necessary, that Americans have already paid for, and rather 
than just dump it in the ocean or even give it to our allies, 
bring it home and use it on the border? The recommendations I 
have heard is we need Humvees, we need night-vision equipment, 
and we need drones on the border itself. Would that be helpful 
in your opinion or not?
    Mr. Aguilar. Absolutely. And, in fact, we are already 
working toward it. Before I left on March 31st, that was one of 
the areas that we were focusing on. We actually have a program 
within CBP dedicated to identifying all the tools, all the 
resources that we can use that are coming out of theater. We 
are working with the Department of Defense, have identified 
things like airships, helicopters, fixed-wing aircraft, ELR 
fleer capabilities that we are in fact putting into use.
    Mr. Poe. And the records that I have before me show that 
apprehensions actually for fiscal year 2013 are continuing to 
increase. Is that correct? 2012, 170,000; 2013, 192,000. Are 
you familiar with those statistics?
    Mr. Aguilar. Through March 31st, I am, sir. I believe when 
I left on March 31st we were up by about 14 percent, if I'm not 
mistaken.
    Mr. Poe. And that may go back to the reason that my friend 
Mr. Gohmert pointed out, when anybody in Congress starts 
talking about immigration reform, foreign nationals try to get 
here as fast as they can to get some of that free amnesty, as 
our border sheriffs call it, on the border.
    I did want to make this comment. I think Congress has the 
obligation and the duty, and I commend the Chair, and the 
Chairman of the Subcommittee, for working on this issue. We got 
to fix it. We got to get it right this time. And we have to 
start with border security. I think we should work next on the 
temporary guest worker program, have it market driven. We 
decide as Congress what the number should be. Because that 
seems to be the focus of many of the other issues. But 
immediately we've got to deal with those drug cartels and keep 
them out of the country by what means we can figure out.
    And I yield back. Thank you, Mr. Chairman.
    Mr. Goodlatte. I thank the gentleman.
    And the Chair now recognize the gentleman from Florida, Mr. 
Garcia, for 5 minutes.
    Mr. Garcia. Thank you, Mr. Chairman. Likewise, I want to 
commend the work of the Subcommittee Chair and your work on 
this. I know how important this is, and it is probably one of 
the most important pieces of legislation that we're going to 
try to get through. And I know how much you've worked on it.
    Ms. Wood, I want to ask you, how much do you think we're 
spending right now on boarder enforcement? What's the total 
cost of this?
    Ms. Wood. I can't give you the total cost.
    Mr. Garcia. Would you have an idea, Mr. Aguilar? So if I 
used a figure like $18.5 billion, is that about right? Is it 
too much? Is it too little?
    Mr. Aguilar. I think that figure reflects what the budgets 
for the organizations having border enforcement responsibility. 
But we cannot forget that those same organizations have a 
tremendous amount of responsibility for trade----
    Mr. Garcia. Correct.
    Mr. Aguilar [continuing]. And other things, narcotics 
interdiction and things of that nature.
    Mr. Garcia. Correct. What percentage, if I asked you, what 
percentage of the folks that overstay make up the body of 
undocumented folks?
    Ms. Wood. Well, the estimate is between 30 and 40 percent. 
But we're not----
    Mr. Garcia. So if we followed Mr. Gohmert's theory, right, 
that we enforce the border, we could put--and following the 
judge's concept that we line up after we put CBP personnel, 
then we put tanks, planes, moats, 30 percent of those people 
would simply have a document that allowed them to go right 
through. Correct?
    Ms. Wood. That's exactly right. And then you'd expect ICE 
to focus on those overstays and look at them. ICE has fewer 
agents than the New York City Police Department. So ICE has 
been faced with this really impossible task, given its 
resources.
    Mr. Garcia. Correct. So, Mr. Crane, you seem to favor a 
sort of a deportation approach to this. So I want to tell you 
about my community. In South Florida, where I live, I have a 
huge number of thousands of Venezuelans, somewhere between 
80,000 and 120,000. They came fleeing Hugo Chavez and the 
Bolivarian Revolution, because Hugo has long since departed, 
but fortunately we still have his people in our neighborhoods.
    And they're stuck in this complicated process. Right? 
They've invested money in our community. As the real estate 
market was completely collapsing across the country, in Doral, 
or Doralezuela, as it's called, the prices increased. They have 
either overstayed their visas, someone in the family has gotten 
their petition approved, others have not. And they've spent 
this--a huge time bouncing through this process through 
temporary visas.
    But regardless of how many businesses have they started, 
the millions they've invested in our community, the vital role 
they play in the economic development of my community, would 
you still support sending them back to Venezuela, regardless of 
their individual circumstances, the economic benefit they have 
given it, or the oppressiveness that they face having their 
businesses and homes being taken over by the government?
    Mr. Crane. Well, first of all, sir, I mean, I think the 
assumption was incorrect. We haven't taken any stance on a 
deportation-only type of enforcement technique. We're asking to 
be a part of what lawmakers create in legislation so that we 
can--whatever you develop, that we can bring the proper and 
appropriate enforcement components to that plan. That's what 
we're asking for.
    Mr. Garcia. But you mentioned that you'd like us to take 
away discretion. In fact, part of the problem, I think, and 
maybe Mr. Aguilar or Ms. Wood would comment, is that we've 
taken away a lot of discretion. In other words, a lot of these 
cases before, we could have immigration judges see the case and 
sort of put them through. Right? Find a category, find a place, 
put them through. Do you disagree with me or do you think that 
that's something we should put back in the system, is a little 
bit more discretion to immigration judges? Ms. Wood?
    Ms. Wood. I think immigration judges should have a fair 
amount of discretion. And I think the agencies should also have 
discretion. But as I mentioned before, both to grant things in 
an immigrant's favor and also for law enforcement equities.
    Mr. Garcia. Okay. Mr. Aguilar?
    Mr. Aguilar. Same thing, sir. On the immigration judges, 
they, in fact, are the best position to have the discretion to 
act. On the agency part, I believe that discretion, responsible 
discretion should be acted upon by the agencies also, yes.
    Mr. Garcia. When you look at what the Senate put forward, 
how do you feel about that in terms of discretion? Is there 
anything there that gives you some hope? Is there not enough?
    Ms. Wood. I think in certain places it actually limits the 
agency's discretion where they might need a law enforcement or 
national security, public safety exception. I have not analyzed 
the other, you know, the numerous other waivers that are in the 
bill in the immigrant's favor. I will tell you, since leaving 
the government I've seen many instances where people needed a 
waiver or discretion.
    Mr. Garcia. Mr. Chairman, I'll conclude with this. We 
introduced the Venezuelan Liberty Act that recognizes the 
unique contributions of Venezuelans to our community and to our 
country and the unique political circumstance that they face. I 
hope that some of the Members of the Committee will have a 
chance to look at it as we go through markup and would 
appreciate their support.
    Thank you very much for your testimony.
    Thank you very much, Mr. Chairman.
    Mr. Goodlatte. I thank the gentleman. And I want to 
recognize the other gentleman from Florida, Mr. DeSantis, for 5 
minutes.
    Mr. DeSantis. Thanks, Mr. Chairman.
    I'd like to pick up with this discretion issue because it 
seems to me that there's actually a huge amount of discretion 
that's been delegated, not necessarily to judges or enforcement 
agents on the ground, but to the bureaucracy, in particular 
political appointees. I mean, for example, I count 129 
instances in which the Secretary shall do something, 102 
instances in which the Secretary may do something, and 35 
instances in which the provisions, the applicability of those 
provisions, go on what the Secretary, ``determines.'' So it 
seems to me that this is actually delegating a huge amount of 
authority to DHS.
    So, Mr. Crane, I just wanted to get your impression. Do you 
agree with how I've analyzed that in terms of giving discretion 
to some of the higher-up officials in DHS?
    Mr. Crane. Absolutely agree with that. I mean, currently, 
right now, we cannot enforce visa overstay and illegal entry 
into the United States, the two most fundamental aspects of any 
immigration system in the entire world. So there's nothing in 
this policy that limits it. And it seems to open it up even 
further, as you say, for the Secretary of DHS to continue that 
type of discretion.
    Mr. DeSantis. Because this is just my reading, and correct 
me if I'm wrong, Mr. Crane, but it seems that the Secretary's 
been delegated the authority for people who have already been 
deported to allow them to essentially get legal status under 
this bill. Correct?
    Mr. Crane. Yes, sir.
    Mr. DeSantis. And the Secretary's determination is really 
the linchpin for when the border is secured. In other words, 
it's not objective criteria, although they do say, oh, certain 
percentage. But, to me, that's going to be hard to calculate. 
But ultimately she has to certify that. Correct?
    Mr. Crane. Yes, sir.
    Mr. DeSantis. And if the DHS fails to do that, they do 
create a border security commission, but that is purely 
advisory in nature, that does not have any binding authority. 
Am I reading that right?
    Mr. Crane. Yes, sir. That's my interpretation.
    Mr. DeSantis. And then with E-Verify, there was some 
discussion about it. It seemed to me one of the things they 
were doing was allow the Secretary defining which employers 
qualify in the first place, so that there are folks who may 
have more seasonal employees or may have other folks who are 
not necessarily traditional, 40 hours a week, 52 weeks a year 
employees, and that they would completely be out of the E-
Verify system. Is that true?
    Mr. Crane. I'm sorry, sir. I'm not as familiar with the E-
Verify section.
    Mr. DeSantis. Ms. Wood, do you----
    Ms. Wood. I think until--at the very end, they make it 
loosened at the very end. But, yes.
    Mr. DeSantis. Okay. And another issue I have is someone had 
said, you know, legalize the right number of people, or 
whatever, and we've been talking about background checks and 
making sure that we do have the right folks. Because I think 
most people, you know, if you've come here unlawfully and then 
you've committed additional crimes, you know, that's a hard 
case to make that somehow you should be given legal status, 
especially when we have a lot of meritorious people throughout 
the rest of the world who would like to come.
    But as I read it, it seems like, you know, you can still 
qualify for status even though you've been guilty of document 
fraud, false statements to authority, and even if you've 
absconded from previous removal proceedings. Is that accurate, 
you would still be able to get RPI status? Anyone of you can 
take that.
    Mr. Crane. Yes, sir.
    Mr. DeSantis. Okay. And then there are certain--the way 
they deal with State convictions, it directs DHS to essentially 
ignore some of these convictions that may have happened under 
State law. Is that accurate?
    Mr. Crane. Yes, sir.
    Mr. DeSantis. Okay. And then, you know, this gang issue. 
Obviously, if someone's a part of a criminal gang, you know, we 
don't want to be giving them legal status. But the way they 
write it, you actually have to have been convicted of the 
Federal gang statute provision, 18 USC 521. The problem is, is 
that that's rarely the statute that would be used, because if 
you're part of a gang, you're engaging in criminal activity, 
you're just going to be prosecuted under the prevailing general 
criminal laws. A lot of times those aren't even Federal laws. 
If there's no interstate commercial nexus, it would just be the 
basic State laws that are there. So to me that is inadequate.
    And then DUIs. It says three or more DUIs would make you 
ineligible. So, in other words, you could have two convictions 
for driving under influence and still get status under this 
law. Is that accurate?
    Mr. Crane. Yes, sir.
    Mr. DeSantis. You also hear people talk about back taxes. 
You know, hey, people got to get right to the law, pay back 
taxes. I think a lot of people say, okay, well, yeah, that 
makes sense, if you've been working unlawfully, you've been 
earning an income, haven't necessarily been paying taxes. I 
know some may, if they have a fake Social Security number. But 
I think most people view that as whatever income you've made 
that you would then pay taxes on that. But the law actually--
that's not what it is. It's just if you happen to have an 
outstanding IRS assessment, then you have to pay your taxes. 
But if you've never been assessed anything by the IRS, then 
there's not going to be a requirement for back taxes. Is that 
accurate?
    Ms. Wood. That's the way I understand it, yes.
    Mr. DeSantis. And I don't know how that's going to work. I 
mean, is that back taxes just going to apply to those who have 
demonstrated evidence of conservatism, the way the IRS treats 
this stuff? It seems like an open question to me.
    So I just, as I look at this, we hear a lot of rhetoric 
from politicians. Really, once you start looking at things, 
you've got to square the rhetoric with the reality. And 
whatever the reality is, whatever bill you're supporting, I 
just think that you should be honest about that so that the 
American people can have a better understanding of what it is. 
You know, as far as I'm concerned, lawful immigration is very 
beneficial for the country, both in terms of economic growth 
and in terms of cultural vitality. And I'll yield in 10 
seconds.
    A lot of folks who come here legally have to work very hard 
to do it. They really appreciate what this country has to 
offer. Seeing people who are here who were born into wealth and 
they criticize the country and all this stuff. So I really 
appreciate getting that new vitality in the United States. But 
we got to do it right, we got to do it in a way that's fair for 
all. Thanks.
    Mr. Gowdy [presiding]. Thank the gentleman from Florida.
    The Chair would now recognize the gentleman from New York, 
Mr. Jeffries.
    Mr. Jeffries. Thank you, Mr. Chair. I ask unanimous consent 
that an article from the Tucson Citizen entitled ``ICE Agent's 
Union Speaks Out on Director's 'Discretionary Memo''' be 
entered into the record.
    Mr. Gowdy. Without objection.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Jeffries. Mr. Crane, I believe on June 23 of 2011 your 
organization issued a press release as it relates to this 
discretionary memo, as it's been coined. Is that correct?
    Mr. Crane. Honestly, sir, I don't remember. We've put quite 
an few press releases out there.
    Mr. Jeffries. That's been clear. Do you recall a statement 
that you made, ``Any American concerned about immigration needs 
to brace themselves for what's coming''?
    Mr. Crane. I do remember that, sir.
    Mr. Jeffries. Okay. And you then stated, I believe, in that 
very same missive, ``This is just one of many new ICE policies 
in queue aimed at stopping the enforcement of U.S. immigration 
laws in the United States.'' Do you recall that statement?
    Mr. Crane. Yes, sir.
    Mr. Jeffries. And do you recall saying, ``Unable to pass 
its immigration agenda through legislation, the Administration 
is now implementing it through agency policies.'' Do you recall 
that statement?
    Mr. Crane. Not so much, sir. But it sounds accurate.
    Mr. Jeffries. Okay. And that's your position. Correct?
    Mr. Crane. Yes.
    Mr. Jeffries. Now, in your testimony today, you mentioned 
and compared your organization and the fact that there are only 
about 5,000 customs agents, less than the number of officers in 
many local police departments. Correct? You stated that?
    Ms. Wood. That was my testimony.
    Mr. Jeffries. That was you? Okay.
    Now, well, would you agree that ICE is a paramilitary 
organization in its construction? That's for Mr. Crane.
    Mr. Crane. Oh. It's a law enforcement organization, sir.
    Mr. Jeffries. Okay. And as a law enforcement organization--
most law enforcement organizations, I don't know of one that's 
not--but most law enforcement organizations are paramilitary 
organizations, correct, in their structure?
    Mr. Crane. I don't know, sir. I was in the military. I 
don't consider it to be very close to the military.
    Mr. Jeffries. A paramilitary organization.
    Mr. Crane. Yeah. I'm sorry, sir, I don't know if I can 
answer that.
    Mr. Jeffries. Okay. But there's a chain of command within 
ICE. Is that correct?
    Mr. Crane. Yes, sir.
    Mr. Jeffries. Okay. And as part of that chain of command, 
there's a Director, John Morton. Correct?
    Mr. Crane. Yes, sir.
    Mr. Jeffries. And that Director is responsible for policy 
in the agency as part of the chain of command that exists. Is 
that correct?
    Mr. Crane. Yes, sir.
    Mr. Jeffries. But you disagreed with the policies that have 
been articulated by Director Morton. Correct?
    Mr. Crane. Especially when they appear to be illegal, sir. 
Yes, sir.
    Mr. Jeffries. Okay. And you've also disagreed with the 
policies of Secretary Napolitano, who is the Secretary of 
Homeland Security. Is that correct?
    Mr. Crane. Yes, sir.
    Mr. Jeffries. Okay. And she's also, as part of the chain of 
command, above John Morton. Is that right?
    Mr. Crane. Yes, sir.
    Mr. Jeffries. Okay. Now, you've also disagreed with the 
policies of the Obama administration. Correct?
    Mr. Crane. Yes, sir.
    Mr. Jeffries. Okay.
    Mr. Crane. I think they're kind of one in the same 
oftentimes.
    Mr. Jeffries. Right. Okay. And the President of the United 
States is ultimately at the top of that chain of command, 
correct, as the United States President?
    Mr. Crane. Yes, sir.
    Mr. Jeffries. Okay. Now, he's been elected not once, but 
twice. Correct?
    Mr. Crane. Yes, sir.
    Mr. Jeffries. And does he have the discretion, is he 
lawfully permitted to execute, as the President of the 
executive branch, policies in the immigration and customs 
space?
    Mr. Crane. Lawfully, yes, sir. But like I've said, we're 
concerned that some of them are unlawful. And I think a judge 
may, you know, second that.
    Mr. Jeffries. Okay. Right. We'll see what the Federal court 
determines.
    Now, in terms of annual removals, in the 1980's, am I 
correct that annual removals never exceeded 35,000 at any point 
during that decade?
    Mr. Crane. I'm sorry, sir, I don't know those numbers. But 
I would trust that you have the correct numbers.
    Mr. Jeffries. Okay. And in fiscal year 2002 under the Bush 
administration, if my timing is correct, 2002, the 
Administration removed approximately 165,000 people. Is that 
correct?
    Mr. Crane. I don't know that number, sir.
    Mr. Jeffries. Okay. Now, the Bush administration, I also 
believe, never removed more than about 360,000 people in a 
given year. Correct?
    Mr. Crane. I thought it was 370-something thousand. But 
that might----
    Mr. Jeffries. Okay. Now, under the Obama administration 
they have averaged approximately 400,000 removals and 
deportations. Is that correct?
    Mr. Crane. That's the numbers that they provide.
    Mr. Jeffries. Okay. Now, you have reason to believe that 
those numbers are inflated?
    Mr. Crane. I do, sir.
    Mr. Jeffries. Okay. And you believe those numbers are 
inflated because they include individuals who are not 
immediately ejected from the border upon their detention. Is 
that right?
    Mr. Crane. Well, that's some of it, sir. I mean, we also 
have a feeling in some offices and some locations that they are 
double counting statistics. Sometimes statistics are being 
counted by the Border Patrol, sometimes they're also then being 
counted by ICE. We believe, but I want to specify that I don't 
have, like, documented proof of that.
    Mr. Jeffries. So you have no real hard number.
    Mr. Crane. No, sir.
    Mr. Jeffries. This is a theory you have.
    Mr. Crane. It's more than a theory, I believe. But I do 
have documented proof.
    Mr. Jeffries. You don't have a specific number at all.
    Mr. Crane. A specific number of?
    Mr. Jeffries. You claim the numbers were inflated, but you 
have no specific evidence to back up that claim. Correct?
    Mr. Crane. No, I don't. I know the--I think it was the 
first year that President Obama came on board, I know they 
carried 20-some-odd-thousand removals over from the previous 
year. That seemed pretty clear to us that, you know, that that 
number--that was cooking the books a little bit for us. But 
past that, no, I don't know that we have any specific numbers.
    Mr. Jeffries. Okay. Thank you very much.
    Mr. Crane. Yes, sir.
    Mr. Gowdy. Thank the gentleman from New York.
    And I want to thank again on behalf of Chairman Goodlatte 
and all of our colleagues our three witnesses for your 
expertise, your endurance, and your comity and professionalism 
with respect to one another and with respect to the Committee.
    With that, this concludes today's hearing. Without 
objection, all Members will have 5 legislative days to submit 
additional questions for the witnesses or additional materials 
for the record.
    With our appreciation again, this hearing is adjourned.
    [Whereupon, at 5:22 p.m., the Committee was adjourned.]

                                 <all>


</pre></body></html>
